<html>
<title> - COMPREHENSIVE IMMIGRATION REFORM</title>
<body><pre>[Senate Hearing 113-129]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-129

 
                    COMPREHENSIVE IMMIGRATION REFORM

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           FEBRUARY 13, 2013

                               ----------                              

                           Serial No. J-113-4

                               ----------                              

         Printed for the use of the Committee on the Judiciary

                    COMPREHENSIVE IMMIGRATION REFORM



                                                        S. Hrg. 113-129

                    COMPREHENSIVE IMMIGRATION REFORM

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 13, 2013

                               __________

                           Serial No. J-113-4

                               __________

         Printed for the use of the Committee on the Judiciary



                  U.S. GOVERNMENT PRINTING OFFICE
85-745                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7314031c33100600071b161f035d101c1e5d">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
            Bruce A. Cohen, Chief Counsel and Staff Director
              Kolan Davis, Republican Chief Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cruz, Hon. Ted, a U.S. Senator from the State of Texas, prepared 
  statement......................................................   130
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     3
    prepared statement...........................................   122
Hirono, Hon. Mazie, a U.S. Senator from the State of Hawaii, 
  prepared statement.............................................   128
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................   120

                               WITNESSES

Case, Mr. Steve, Chairman and Chief Executive Officer, Revolution 
  LLC, Washington, DC............................................    43
    prepared statement...........................................    97
Crane, Mr. Chris, President, National Immigration and Customs 
  Enforcement Council 118, American Federation of Government 
  Employees, Washington, DC......................................    46
    prepared statement...........................................   105
Murguia, Ms. Janet, President and Chief Executive Officer, 
  National Council of La Raza, Washington, DC....................    47
    prepared statement...........................................   113
Napolitano, Hon. Janet, Secretary, U.S. Department of Homeland 
  Security, Washington, DC.......................................     5
    prepared statement...........................................    69
Vargas, Mr. Jose Antonio, Founder, Define American, New York, New 
  York...........................................................    39
    prepared statement...........................................    81
Vaughan, Ms. Jessica, Director of Policy Studies, Center for 
  Immigration Studies, Washington, DC............................    41
    prepared statement...........................................    84

                         QUESTIONS AND ANSWERS

Questions for Steve Case from Senator Grassley...................   131
Questions for Chris Crane from Senator Grassley..................   133
Questions for Janet Murgia from Senator Grassley.................   134
Questions for Janet Napolitano from Senator Grassley.............   136
Questions for Jessica Vaughan from Senator Grassley..............   141
Questions for Steve Case from Senator Lee........................   142
Questions for Chris Crane from Senator Lee.......................   143
Questions for Secretary Napolitano from Senator Lee..............   144
Responses of Steve Case to questions submitted by Senators Lee 
  and Grassley...................................................   146
Responses of Chris Crane to questions submitted by Senators 
  Grassley and Lee...............................................   150
Responses of Janet Murguia to questions submitted by Senator 
  Grassley.......................................................   156
Responses of Secretary Napolitano to questions submitted by 
  Senator Grassley...............................................   162
Responses of Jessica Vaughan to questions submitted by Senator 
  Grassley.......................................................   197

                       SUBMISSIONS FOR THE RECORD

GAO-13-25 Border Patrol Strategic Plan, Senator Schumer 
  submission.....................................................   201
Letter from Senator Jeff Flake to Hon. Janet Napolitano, 
  Secretary, Department of Homeland Security, February 11, 2013..   210
Letter from Chris Crane, National Immigration and Customs 
  Enforcement Council, to President Obama........................   212
Presente.org, CREDO Action, Daily KOS, America's Voice, National 
  Council of La Raza, and Reform Immigration for America, joint 
  statement......................................................   214
Morton, John, Director, U.S. Department of Homeland Security, 
  Washington, DC, statement......................................   221
Letter from Asian American Justice Center to Senate Judiciary 
  Committee, February 13, 2013...................................   224
Bellows, Laurel G., President, on behalf of American Bar 
  Association, Washington, DC, statement.........................   230
ABCNews, Washington, DC, article.................................   239
American Civil Liberties Union (ACLU), Laura W. Murphy, Director, 
  Washington, DC, statement......................................   241
American Immigration Lawyers Association (AILA), Crystal 
  Williams, Executive Director, Washington, DC, statement........   258
Mazzola, Justin, Researcher, Amnesty International USA, New York, 
  New York, statement............................................   262
Anti-Defamation League (ADL), Washington, DC, statement..........   270
Asian & Pacific Islander American Health Forum (APIAHF), 
  Washington, DC, statement......................................   275
Arab American Institute, Maya Berry, Executive Director, 
  Washington, DC, statement......................................   281
AWGCIRSign, February 8, 2013, joint letter.......................   284
Battle, Colette Pichon, National Board Member, Black Immigration 
  Network, New York, New York, statement.........................   296
Goering, Curt, Executive Director, The Center for Victims of 
  Torture, statement.............................................   302
Department of Homeland Security, Immigration Detainer, Notice of 
  Action, forms..................................................   305
Drug Policy Alliance, Grant Smith, Policy Manager, Office of 
  National Affairs, Washington, DC, statement....................   309
U.S. Commission on Civil Rights, Washington, DC, February 12, 
  2013, letter...................................................   313
Shurtleff, Mark, former Utah Attorney General, statement.........   318
Bowie, Rebecca and Jeff, Suwanee, Georgia, February 12, 2013, 
  letter.........................................................   321
Hawkins, James R., Chief of Police, City of Garden City Police 
  Department, Garden City, Kansas, February 12, 2013, letter.....   325
Tiven, Rachel B., Executive Director, Immigration Equality, 
  National Gay and Lesbian Task Force Action Fund; National 
  Center for Transgender Equality; Family Equality Council; Queer 
  Undocumented Immigrant Project (QUIP), a project of United We 
  Dream; United Methodist Church, General Board of Church and 
  Society; Association of Welcoming & Affirming Baptists; United 
  Church of Christ, Justice and Witness Ministries; UCC 
  GenderFold Action Alliance; Auburn Seminary; Gay, Lesbian & 
  Straight Education Network; Out4Immigration; Gay & Lesbian 
  Advocates & Defenders (GLAD; Transgender Law Center, 
  Washington, DC, joint statement................................   328
Human Rights First, Eleanor Acer, Director, Refugee Protection 
  Program, Washington, DC, statement.............................   337
How to Repair the U.S. Asylum and Refugee Resettlement System....   347
How to Repair the U.S. Immigration Detention System..............   373
National ICE Council, LeAnn Mezzacapo, Washington, DC, statement.   392
Interfaith Immigration Coalition (IIC), 
  interfaithimmigrationcoalition.org, statement..................   399
Gomez, Rev Jose H., Archbishop of Los Angeles, Chairman, U.S. 
  Conference of Catholic Bishops, Los Angeles, California, 
  statement......................................................   431
Leadership Conference on Civil and Human Rights, Wade Henderson, 
  President and CEO, Washington, DC, statement...................   454
McDevitt-Pugh, Martha, Democrats Abroad LGBT Immigration Task 
  Force, Washington, DC, statement...............................   461
National Association of Former Border Patrol Officers, Kent 
  Lundgen, Brunswick, Georgia, statement.........................   462
National Immigration Forum, Washington, DC, statement............   464
National Latina Institute for Reproductive Health, Washington, 
  DC, statement..................................................   466
Mann, Donald, President, Negative Population Growth, Alexandria, 
  Virginia, statement............................................   475
Stolz, Rich, Executive Director, OneAmerica, Seattle, Washington, 
  statement......................................................   478
People for the American Way, Marge Baker, Executive Vice 
  President for Policy and Program, Andrew Fillum, Director of 
  Youth Leadership Programs, Joy Lawson, Director, YP4 Action, 
  and Minister Leslie Watson Malachi, Director, African American 
  Religious Affairs, Washington, DC, joint statement.............   488
PICO National Network, Gordon Whitman, Policy Director, 
  Washington, DC, statement......................................   491
Bragar, Robert, DNC Member, Democrats Abroad, Washington, DC, 
  statement......................................................   494
SIREN Services, Immigrant Rights & Education Network, San Jose, 
  California, statement..........................................   495
``Outlaw,'' New York Times, June 26, 2011, article...............   497
Vargas, May 24, Time Magazine, New York City, article by Jose 
  Antonion Vargas................................................   503
Washington Office on Latin America (WOLA), Adam Isacson and 
  Maureen Meyer, Washington, DC, joint statement.................   521
Women's Refugee Commission, New York, New York, statement........   529


                    COMPREHENSIVE IMMIGRATION REFORM

                              ----------                              


                      WEDNESDAY, FEBRUARY 13, 2013

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:43 a.m., in 
Room SH-216, Hart Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Feinstein, Schumer, Durbin, 
Whitehouse, Klobuchar, Franken, Coons, Blumenthal, Hirono, 
Grassley, Sessions, Graham, Cornyn, Lee, Cruz, and Flake.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. We're delayed a little bit 
starting because there were a number of people waiting to get 
into the room, and I think we have been able to accommodate 
those who were waiting. There are well over a couple hundred 
people in this room. There are hundreds more watching our 
Committee Webcast. And I know that this is an issue that 
everybody has differing views on, and I would hope that--well, 
I know that we will have a civil meeting. Senator Grassley and 
I will, I think, join in asking everybody to treat all 
witnesses with respect.
    I think the President should be commended for making 
comprehensive immigration reform a top priority. He followed 
his speech in Nevada last month with very strong comments last 
night in his State of the Union speech. I agree with his call 
for real reforms that will not only address our undocumented 
population, but will improve legal immigration by reducing the 
bureaucracy and delays that hinder our job creators but also 
strain our families. His recommendations for how to tackle one 
of our Nation's most pressing problems are thoughtful, they are 
realistic, they are inclusive.
    I was pleased to see that the President's proposal includes 
better access to visas for victims of domestic and sexual 
violence, improved laws for refugees and asylum seekers, and 
the assurance that every family receives equal treatment under 
the law.
    I look forward to seeing these principles turned into 
legislation. More importantly, comprehensive immigration reform 
has to include a fair and straightforward path to citizenship 
for those ``dreamers'' and families who have made the United 
States their home--the estimated 11 million undocumented people 
in the United States. I am troubled by any proposal that 
contains false promises in which citizenship is always over the 
next mountain. I want the pathway to be clear. I want the goal 
of citizenship to be available and attainable.
    The President and Secretary Napolitano have done more in 
the administration's first four years to enforce immigration 
laws and strengthen border security than in the previous eight 
years. But we will continue our efforts to make sure that 
Federal law enforcement officials have the tools they need to 
be effective and secure, and that is something that should 
unite both Democrats and Republicans.
    Now, despite all our efforts and all our progress, there 
are some stuck in the past who are repeating the demands of 
``enforcement first.'' I fear that they mean ``enforcement 
only.'' To them I say this has stalled immigration reform for 
far too long. We have effectively done enforcement first and 
enforcement only. It is time to proceed to comprehensive action 
to bring families out of the shadows.
    The President is right: Now is the time. And in my view, it 
is time to pass a good bill, a fair bill, a comprehensive bill. 
I want this Committee to complete work on such a bill over the 
next few months. Too many have been waiting too long for 
fairness.
    I hope that we will honor those who contributed so much to 
building this country after coming from distant lands in search 
of freedom and opportunity. Few topics are more fundamental to 
who and what we are as a Nation. Immigration throughout our 
history has been an ongoing source of renewal of our spirit, 
our creativity, and our economic strength, whether it was my 
maternal grandparents who immigrated to Vermont from another 
land with another language or my wife's parents who immigrated 
to Vermont from another country with another language. From the 
young students brought to this country by their parents seeking 
a better life, to the hardworking men and women who play vital 
roles supporting our farmers, innovating for our technology 
companies, or creating businesses of their own, our Nation 
continues to benefit from immigrants, and we have to uphold the 
fundamental values of family, hard work, and fairness.
    In Vermont, immigration has promoted cultural richness 
through refugee resettlement and student exchange, economic 
development through the EB-5 Regional Center program, and 
tourism and trade with our friends in Canada. Foreign 
agricultural workers support Vermont's farmers and growers, 
many of whom have become a part of the Vermont families that 
are so integral to our communities.
    But the dysfunction in our system affects us all. We have 
to do better by gay and lesbian Americans who face 
discrimination in our immigration law. Today, Senator Susan 
Collins and I will introduce the Uniting American Families Act. 
This legislation, I hope, will end the needless discrimination 
so many Americans face in our immigration system. Too many 
citizens, including Vermonters who I have come to know 
personally and who want nothing more than to be with their 
loved ones, are denied this basic human right. This policy 
serves no legitimate purpose, and it is wrong.
    The fundamental civil rights of American citizens are more 
than just a social issue. Any legislation that comes before the 
Senate Judiciary Committee should recognize the rights of all 
Americans, who have just as much right to spousal immigration 
benefits as anybody else, straight or gay.
    We know that the President has a comprehensive proposal 
that he has deferred sending to us at the request of Senators 
working to develop their own legislation. I would say to 
everybody that the window of opportunity will not stay open 
long. If we are going to act on this issue, we have to do so 
without delay. I hope today's hearing helps to emphasize the 
urgency of the situation because this Committee will start 
marking up immigration legislation soon.
    Senator Grassley.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. Thank you very much, Mr. Chairman, and 
before I speak, I want to notify the audience as well as the 
panelists that three of us on the Committee have a conflict, 
two Republicans and one Democrat, with Finance, so we will be 
in and out for that hearing, and a couple of us have some 
conflict also between Budget and this Committee.
    I am going to start with a quote from then-Chairman Senator 
Simpson of Wyoming that he made on May 5, 1981, as we started 
down a six-year road to get the immigration bill of 1986 
passed. ``Immigration reform is a perilous minefield of 
emotionally charged issues. One cannot but consider any such 
discussion as being about one's own ancestors, and in some 
cases about oneself. Further, it brings into question one's 
image of America's past, an assessment of America's present, 
and most difficult of all, the direction of America's future. 
There is a general consensus that reform is required, some 
clear restatement of where we stand. It is imperative that the 
debate concerning such needed reform be conducted in an 
atmosphere of calm, compassionate, and careful deliberation, 
recognizing the difficulty of the question and the earnestness 
of those who will speak to it.''
    Just as Congress was about to undertake an overhaul of the 
immigration system and to put a legalization program in place 
was what that road we started down was at that time in 1981. 
His words are valuable and relevant today. Since I was elected 
to the Senate in 1980, I have served on this Committee. I have 
seen my share of immigration debates. I voted for the 1986 
amnesty because I believed it was a one-time solution to our 
problem. I was wrong. And today we are forced to deal with the 
same problem and the same arguments and the same ideas of how 
to improve the situation.
    I applaud the movement by Members, including several of 
this Committee, to work toward an agreement. I have read the 
bipartisan framework for immigration reform that the group has 
written. The one line that struck me was the last sentence of 
the preamble. It states, ``We will ensure that this is a 
successful permanent reform to our immigration system that will 
not need to be revisited.'' That sentence is the most important 
part of that document, and we must not lose sight of that goal. 
We need to learn from our previous mistakes so that we do not 
have to revisit that problem again.
    I welcome the Secretary today and hope that we will get a 
better understanding of the administration's ideas. President 
Obama campaigned on transparency, but that promise has not been 
fully met. I take my responsibilities to do oversight 
seriously, so it is extremely frustrating that the questions I 
have asked of this administration and of this Secretary have 
gone unanswered. I think it is a slap in the face of the 
American people who also want and deserve answers. So I plan to 
ask the Secretary about why agents in New Jersey were directed 
not to arrest a sexual predator whom they knew had overstayed a 
visa and had sexually abused minors on several occasions.
    According to internal memos provided to the Committee, 
Immigration and Customs Enforcement officials in Newark planned 
to arrest Luis Abraham Sanchez Zavaleta on October 25th, but 
delayed the arrest after learning it was likely to be a high-
profile case that would garner significant media and 
congressional interest. Zavaleta had pled guilty as a juvenile 
in family court in New Jersey to sexual assault of an eight-
year-old boy, and police reports indicate that similar abuse 
had occurred a total of eight times. All Republicans on the 
Judiciary Committee sent the Secretary a letter December 19, 
2012, and a follow-up letter January 7th this year. On February 
4, 2013, two officials from Immigration and Customs Enforcement 
briefed Committee staff, but the Department has refused to make 
available before this hearing the official with firsthand 
knowledge, raising questions about what the Department might be 
trying to hide.
    Staff is also still waiting for the Department to provide 
requested documents and a full response to our letters. But 
here is what we know. Immigration and Customs Enforcement 
missed an opportunity to arrest Sanchez Zavaleta in 2010. Then 
his arrest was delayed again in 2012, from October 25th until 
December 6th. Sanchez Zavaleta had a pending application for 
Deferred Action for Childhood Arrivals. This application was 
later denied December 4th. According to ICE agents who briefed 
Committee staff, Sanchez Zavaleta would have been eligible for 
DACA and his juvenile adjudication would not be a bar to 
eligibility. Now, isn't that a shocking assertion that U.S. 
Citizenship and Immigration Service would have the discretion 
to grant a child rapist application to stay in the country?
    Today this person is free in the United States. After 
having served only a few days in detention, he was released on 
bond and is being monitored by ankle bracelet. It is unknown if 
Sanchez Zavaleta continued to work with youth as he did prior 
to being apprehended.
    So the Secretary must answer for the delay in arresting 
this sexual predator and for allowing him to be on the streets 
today.
    I also plan to ask the Secretary about her lack of 
cooperation and transparency with regard to the Deferred Action 
for Childhood Arrivals Program. I have sent several letters to 
the administration about how the program would be implemented. 
Our first letter to the President went unanswered. Then the 
Chairman of the House Judiciary Committee, Lamar Smith, and I 
posed several questions about background checks, fraud 
prevention funding, and applications that are denied. We asked 
the Secretary for a complete set of data. At least five of our 
letters on DACA alone were ignored by the Secretary.
    The Secretary has also failed to respond to me about 
countries that refuse or delay taking back aliens. Finally, we 
have yet to receive responses posed by members of this 
Committee after our last hearing with the Secretary. She 
appeared before us April 25, 2012. Those questions have been 
ignored.
    We are on the cusp of undertaking this massive reform of 
our immigration system that I started out my remarks referring 
to, a very important process we are going through. Immigration 
must be settled. We must find answers. But getting answers to 
our most basic questions that are a part of this process of 
legislating seems to be impossible. This administration has 
refused to be held accountable. I fear that what will become of 
the President's promise of transparency if and when we do pass 
a bill. Enacting a bill is one part of the process. 
Implementing the law that we pass is another. If we do not have 
faith in this administration now, how can we trust the 
implementation of a very important law that hopefully we will 
be able to pass yet this year?
    I look forward to hearing from the Secretary.
    Chairman Leahy. Thank you.
    Secretary Napolitano is the third Secretary of Homeland 
Security. She served as Governor of Arizona, Attorney General 
of Arizona actually, when we first met, and as United States 
Attorney for the District of Arizona.
    The full statements of all witnesses will be placed in the 
record in full, and I would ask you, Madam Secretary, to go 
ahead and summarize or emphasize whatever points you would 
like.

 STATEMENT OF THE HONORABLE JANET NAPOLITANO, SECRETARY, U.S. 
        DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, DC

    Secretary Napolitano. Well, thank you, Mr. Chairman and 
Senator Grassley and members of the Committee. It is a 
privilege to be here with you today, and I thank you for 
convening this hearing on such an important, timely issue, one 
that President Obama and I are committed to working with you to 
address: the need for common-sense immigration reform.
    I sit here before you today not just as DHS Secretary but 
as someone who has spent the better part of my life and career 
focused on immigration enforcement and policy. I grew up in New 
Mexico. As the U.S. Attorney in Arizona, I supervised the 
prosecution of more than 6,000 immigration felony cases. As 
Arizona Attorney General and Governor, I dealt with the surge 
of illegal immigration in the early part of the century.
    As Secretary of Homeland Security, I now serve as the chief 
enforcer of immigration law and the chief administrator of 
immigration services. I have dealt with immigration law and 
policy----
    [Audience outburst.]
    Chairman Leahy. The Committee will stand in recess until 
the police can restore order. The police will restore order. 
Everybody will be seated so as not to block the view of those 
behind you.
    You know, it is interesting. I hope that the people, 
whether they are for or against the position that I or others 
might take, I hope they do not think they are going to really 
help their cause by doing this. We are going to have as open a 
hearing as possible. We will have statements from not only the 
witnesses but from others. And we will also have an orderly 
hearing because there are a lot of people here who want to hear 
what the witnesses say, and the Chair will not allow 
disturbances of that. I just want that very, very clear.
    Secretary Napolitano, please continue.
    Secretary Napolitano. Mr. Chairman, I have dealt with 
immigration law and policy at nearly every level. I have seen 
this issue from many perspectives. I can say without 
equivocation what everyone who deals with this issue knows 
well. Our immigration system is not just broken; it is hurting 
our country. The time to fix it is long overdue, and the way to 
fix it is with common-sense, comprehensive immigration reform.
    There is, as you noted, perhaps nothing more central to the 
American story than immigration and the contribution of 
immigrants to the United States. Immigration forms the core of 
our national identity. It has contributed to the richness of 
our culture and the advancement of our society. For many of us, 
it has also shaped our own families. But our immigration system 
is not working. Our communities, workers, and employers are all 
frustrated by a system that treats a drug smuggler the same as 
a high-achieving student, undercuts honest employers, and 
leaves millions in fear of deportation and vulnerable to fraud 
and other crimes.
    We have tried before to reform this system. We have been 
unsuccessful because those efforts failed to address the root 
of the problem and in some cases directly contributed to the 
situation we find ourselves in today.
    Now, I often hear the argument that before reform can move 
forward, we must first secure our borders. But too often the 
``border security first'' refrain simply serves as an excuse 
for failing to address the underlying problems. It also ignores 
the significant progress and efforts that we have undertaken 
over the past four years.
    Our borders have, in fact, never been stronger. I became 
U.S. Attorney in Arizona in 1993 after the provisions of the 
1986 bill had taken effect, and I experienced the surge of 
border crossings firsthand. And for more than a decade in 
Arizona, I was vocal about filling that gap. We have done that. 
The situation I face in Arizona no longer exists. The border 
today is not the border then. Our border is better staffed with 
more people, infrastructure, and technology than at any time in 
our Nation's history, and the results are clear. Illegal 
immigration attempts are at 40-year lows; seizures of drugs, 
weapons, and contraband are up over the past four years. We 
have stronger, safer border communities and smarter, more 
efficient ports of entry.
    But that is not to say that we are done or that we can stop 
our efforts. To the contrary, we must sustain and buildupon 
them. But the most effective way to do that is through common-
sense immigration reform that strengthens employers' 
accountability and that updates our legal immigration system.
    Now, I have also heard the refrain that any attempt to 
provide legal status to the undocumented immigrants already in 
our country would simply reward lawbreaking and constitute 
amnesty. Deporting 11 million people is not just impractical 
and cost prohibitive; it runs counter to our values. It would 
break apart families, hurt our economy, and create labor 
shortages in critical industries. We must have a way for those 
who broke the law to pay a penalty, pay their taxes, learn 
English, and get right with the law so they can earn their way 
to citizenship.
    Last month, President Obama put forward a set of principles 
that he believes will address the longstanding problems with 
our immigration system. His vision is firm and fair, and it is 
largely consistent with the bipartisan framework for 
comprehensive reform announced by a bipartisan group of 
Senators, some of whom are here today.
    The President's principles support stronger, sustained 
border security and immigration enforcement. The President's 
proposal gives us better tools to strike at employers who hire 
illegal labor and, by doing so, create the market demand for 
illegal immigration. Under the President's proposal, we would 
provide a rigorous pathway to earn citizenship for those 
already here, and we would significantly improve the legal 
immigration system.
    Common-sense immigration reform will help eliminate the 
main driver of illegal immigration: the desire to find work. As 
we make it easier for businesses to get the workers they need 
legally and more difficult for undocumented workers to find 
jobs, this will relieve pressure on the border and reduce 
illegal flows, and that will enable law enforcement to keep 
their focus where it should be--on narcotraffickers, human 
smugglers, and transnational criminal organizations.
    An improved visa system will help align our work force with 
the needs of our economy. Further expansion of a worker 
verification system will allow employers to quickly and easily 
confirm the new hires and that they are eligible to work here, 
and increased penalties will help deter employers who still 
refuse to play by the rules.
    A common-sense bill will also increase security by 
improving infrastructure at the ports of entry, giving 
prosecutors new legal tools to dismantle transnational criminal 
organizations and supporting DHS' work with State, local, and 
tribal partners in border communities.
    And, finally, it will help law enforcement protect our 
communities in other ways, by bringing millions of people out 
of the shadows. Having a large group of illegal, undocumented 
immigrants creates many problems for law enforcement and for 
our communities.
    These are all common-sense reforms, supported by law 
enforcement organizations, business leaders, faith communities, 
and elected officials from both sides of the aisle. With 
bipartisan support for reform, now is the time to act.
    President Obama and I stand ready to work with this 
Committee and the Congress to achieve this goal for our 
country, for the American people, and for all who seek to 
contribute their talents and energy to our great Nation, just 
as generations before them have done, and just as future 
generations must do.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Napolitano appears as 
a submission for the record.]
    Chairman Leahy. Thank you very much, Madam Secretary.
    You know, as we begin this debate on comprehensive 
immigration reform, we have heard some say that if we legalize 
the status of millions of people, we are going to end up in the 
same situation 10 or 20 years from now with a large 
undocumented population. We will repeat the same cycle as 1986, 
as has been referred to here earlier. And some argue that 
legalizing the status of this population is going to be a 
magnet for future illegal immigration.
    How would you respond to that? Is there something different 
today? Do we take different steps in the legislation? How would 
you respond?
    Secretary Napolitano. Mr. Chairman, I would say that 
immigration and immigration enforcement now is light years away 
from what it was in 1986, and you can see it by the numbers. I 
think in 1986 the total Border Patrol population was about 
3,000. Now it is over 21,000, assuming sequestration does not 
happen.
    I think in 1986 there were a couple of miles of fence along 
the entire southern border, and it was basically chain-link 
fence. Now we have over 655 miles of actual fence 
infrastructure. In some areas it is double. There are a lot of 
kinds of infrastructure that goes into it.
    In 1986, the then-INS removed I think about 25,000 
individuals from the country. Last year, we removed 409,000. 
That is a record number. Fifty-five percent of those had other 
criminal convictions, by the way. But it is the enforcement and 
the removals that have caused some of the tensions that we saw 
expressed earlier today.
    So, in short, the border is different than it was then. 
Immigration enforcement is different than it was then. And I 
think from the President's standpoint, from our standpoint, two 
things must occur: One, these efforts must be sustained and 
built upon; and, two, we have to get at the demand for illegal 
immigration, and we have to deal with legal migration into the 
country.
    Chairman Leahy. Let me ask you this. If you had a 
legalization process, does that make your efforts to apprehend 
and remove those who have committed crimes or are fugitives 
more or less difficult?
    Secretary Napolitano. Oh, it makes it less difficult, and 
the reason, Mr. Chairman, is because, as I mentioned in my 
statement, it takes out of the enforcement area those who have 
longstanding relationships in the country, who have been here 
for years, who are already working, paying their taxes and the 
like, and it allows us to focus even more specifically on those 
who are here committing other crimes and who are really 
dangerous to our public safety and our security.
    Chairman Leahy. You know, anybody who has ever been a 
prosecutor knows that it is impossible to prosecute every 
single thing that comes before you, and actually the reason we 
either appoint or elect our prosecutors, is that we assume they 
are going to use some discretion in what they go after.
    Now, you have shown prosecutorial discretion, which I 
supported, in your policies to provide relief for children 
brought to the United States by their parents. You are not 
visiting the sins of the parents upon the children, in effect, 
as somebody else said.
    But critics have said the administration's Deferred Action 
for Childhood Arrivals, DACA, and prosecutorial discretion 
policies have the effect of prohibiting ICE from enforcing the 
law. How would you respond to that?
    Secretary Napolitano. I would say to the contrary. First of 
all, the DACA program is consistent with our values. As you 
said, we should not visit the ``sins'' of the parents upon the 
children. I think about 190,000 have now been granted deferred 
action under the DACA program.
    But, second, the guidance we have given to ICE and ICE 
agents is to focus on those who commit other crimes, who are 
repeat violators, who are fugitives from existing warrants, and 
taking those who are low priority out of the system per se 
allows us to achieve that focus.
    Chairman Leahy. Now, I mentioned earlier that Senator 
Collins and I have legislation, the Uniting American Families 
Act. It is legislation I have introduced every year for 10 
years. President Obama included immigration fairness as part of 
his principles for immigration reform. Some have expressed the 
fear that adjudicating same-sex spousal or partner petitions 
would cause significant challenges for adjudicators and invite 
more fraud. I do not see that. We were able to handle that 
issue very easily in my State of Vermont.
    Do you see any likelihood that expanding the spousal green 
card to committed same-sex couples presents a risk of fraud any 
greater than that associated with heterosexual spousal 
petitions?
    Secretary Napolitano. No, and our adjudicators are 
experienced at fraud detection. We have actually increased the 
number of examiners who focus on this. This is done primarily 
at USCIS, but, no, we do not see that as a barrier to achieving 
equality.
    Chairman Leahy. My time is up, but I would ask you to look 
at some of the dysfunctions in the existing H-2A agricultural 
visa system, especially as that involves dairy farmers, 
obviously a matter of concern to me in Vermont. And I would ask 
you to work with us to make that better and continue to work 
with us, as you have, on the EB-5 Program. That has been a 
success in Vermont. H-2A has problems. EB-5 has worked well. So 
let us work on those two, and if you would commit to have your 
staff work with mine on those two issues, please.
    Secretary Napolitano. Mr. Chairman, absolutely. And on the 
H-2A issue with particularly the dairy farmers, again, another 
area where statutory reform is needed. That can all be fixed by 
statute.
    Chairman Leahy. I could not agree more. Thank you.
    Senator Grassley.
    Senator Grassley. Mr. Chairman, if I could, out of 
courtesy, Senator Sessions is Ranking Republican on the Budget 
Committee, and they meet soon. I would like to defer to him and 
then be the next Republican.
    Chairman Leahy. Certainly. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. And you and I do 
share some common beliefs about EB-5, and I think we can make 
that system better and should make it better.
    And, Mr. Chairman, you touched on a question that is so 
fundamental to our analysis of immigration law in America, and 
that is, you said you were afraid enforcement first means 
enforcement only. For the American people, what their concern 
is that by saying enforcement only, you really mean amnesty 
only. You really mean that we are not going to have 
enforcement, but we have got to have amnesty first. And that is 
part of the big debate that we are wrestling with.
    And, Madam Secretary, I truly believe had this 
administration done a better job of enforcement, been more 
effective in moving forward with a lawful system of 
immigration, you would be in a much stronger position with the 
American people to ask for a more broad solution to the 
problem. So I think that is the fundamental place we are today.
    I truly respect the people that are working that think they 
can reach legislation, but it sounds a good bit like what 
happened previously. It sounds so much like before where a 
group of special interests meet at the White House, and you had 
some of the big business people and you had the agro people and 
you had the immigration activist people. But I did not see the 
Border Patrol there. I did not see the ICE representatives, the 
law enforcement officers there. And I did not see the American 
people's real interests being represented there.
    So a bill will come out, and it will need to be analyzed. I 
have my doubts that it is going to deliver on its promises. If 
it can deliver on its promises, then I think there will be a 
strong--I think it will have momentum and can go forward, and 
perhaps even become law. But we might be better in dealing with 
the discrete problems within our immigration system today than 
trying a massive immigration comprehensive reform.
    I do believe some improvement has been done at the border. 
I do not know where you were, Governor Napolitano, but I fought 
for the fencing that is out there that you are bragging about 
today, and it took a long time, and it basically only got done 
after the last bill or as part of the last bill was going 
forward. And it called for 700 miles of fencing. As of February 
of this year, there are 352 miles of pedestrian fencing, 299 
miles of vehicle fencing, and approximately 36 miles of 
secondary fencing--not what the law required. It called for 
full double fencing, pedestrian fencing, for 700 miles.
    I just say that to say that--and additional Border Patrol 
Agents that have been added in recent years were added over the 
objection of many of the people that were advocating the last 
amnesty law that came forward.
    So, anyway, that is where we are. We had to fight for that. 
We had to fight for funding for that, and we still are not 
where we promised the American people we would be.
    When you last appeared before the Committee in October 
2011, I raised concerns about the morale of agents and officers 
of ICE, the Immigration and Customs Enforcement agency. In 
2010, they cast a no-confidence vote unanimously on their 
director, John Morton, because of policies implemented by this 
administration that directly orders them not to enforce the 
law. These are the people who handle mostly the internal, not 
the border area.
    At that time you said you believed those policies are 
``actually enhancing morale among our troops.'' Well, 
apparently that was not correct.
    According to recent Federal surveys, ICE ranked 279th out 
of 291 in agency morale and satisfaction. The president of the 
ICE employees union, Chris Crane, who will testify later, 
before the House Committee last week said that his agency is 
falling apart. Its agents now believe that, ``Death or serious 
injury to ICE officers and agents appears more acceptable to 
ICE, DHS, and the administration leadership than the public 
complaints that would be lodged by special interest groups 
representing illegal aliens.''
    They have also filed a lawsuit against you alleging that 
you are interfering and blocking their ability to enforce the 
law. That lawsuit is still in court moving forward.
    So this is a real serious problem. Have you met with Mr. 
Crane or the ICE agents to try to resolve this difficult 
problem of morale?
    Secretary Napolitano. Senator, let me make three points, 
because you actually had a series of questions.
    Number one, were CBP and ICE involved in discussions in the 
White House as the President formed his proposal? And the 
answer is yes. And, in fact, the Acting Commissioner of CBP is 
a career Border Patrol Agent for decades. Operational issues 
and how the system works were definitely part of that dialogue.
    On the fence, the original act was for 700 miles. There was 
a subsequent amendment or adjustment to that--I think it was 
proposed by Senator Hutchison--to 655 miles. All but one mile 
of that is now complete, and the one mile or different little 
sections, most of them are in some litigation or another with 
private property owners. But the fence, to the extent it has 
been appropriated for, is complete.
    With respect to----
    Senator Sessions. Well, it is not the kind of fence the 
statute described.
    Secretary Napolitano. And with respect to ICE and ICE 
morale, I think ICE agents have one of the most, if not the 
most difficult law enforcement jobs in America. They get 
criticized because we are deporting too many people, and as I 
mentioned in my testimony, we have deported more people than 
any prior administration. Then they get criticized for not 
deporting everyone who is here illegally. It does not surprise 
me that their morale is low.
    We are working on that, and we are doing a number of 
things, but the key fact I want to get to, Senator, is that it 
is our responsibility as the leadership of the Department, as 
the leadership of any prosecution agency, to set priorities. It 
is done within the Department of Justice. It is done within 
every State Attorney General's office. It is done within 
every----
    [Audience outburst.]
    Chairman Leahy. The police will restore order.
    Thank you. Go ahead, please.
    Secretary Napolitano. It is done within every local 
prosecutor's office.
    [Audience outburst.]
    Secretary Napolitano. The priorities are not set--with all 
respect and appreciation for the hard work of our agents in the 
field, they do not set the policy. They get guidance from their 
leadership as to what they should focus upon, and that is what 
ICE has done.
    Chairman Leahy. Senator Feinstein----
    Senator Sessions. Thank you, Mr. Chairman, and I just would 
say they are not happy with those policies. That is the 
problem.
    Chairman Leahy. Thank you. We gather that.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Madam Secretary, I have followed your career and also your 
administration of a very tough, large, unwieldy Department, and 
I want to thank you for your service and your good work. I 
think you have been just excellent, and I want you to know 
that.
    Secretary Napolitano. Thank you very much.
    Senator Feinstein. Let me bring up something that I bring 
up at every hearing, and that is the Visa Waiver Program and 
the absence of a biometric entry and exit system for foreign 
visitors. I know how important this program is to commerce and 
travel. I also know that Richard Reid, the shoe bomber, and 
Zacarias Moussaoui came in on the Visa Waiver Program. For many 
years, I have been trying to get data on visa overstays for 
each country, to no avail so far.
    Last year, Assistant Secretary David Heyman informed me 
that, by June 2012, the Department would have a fully 
operational biometric exit system in place that would provide 
real-time information to those who exit U.S. airports. This new 
system was expected to allow DHS to calculate overstays per 
country by May 2012. Now, as you know, the Department has 
failed to meet both the May and June deadlines.
    Could you give us a quick update? Because I have got two 
other questions I want to get in in my short time. And when are 
we going to be able to get the exit and entry system in place?
    Secretary Napolitano. Right. I think what Mr. Heyman was 
probably referring to was an enhanced biographic exit system 
that will lead to biometric.
    Senator Feinstein. That is correct.
    Secretary Napolitano. And that is an important distinction 
because biometric, as you know, is extraordinarily expensive, 
and our airports were never designed to monitor exits, only 
entrances. So lots of logistical difficulties.
    On the country-by-country overstay rates, I inquired about 
this as recently as last week. I was told that we should have 
those in 2013. I said, ``Now in 2013? The end of 2013? '' The 
answer I got was, ``By the end of 2013.'' But, Senator, I want 
to assure you this is something that I am very interested in as 
well.
    Senator Feinstein. Well, thank you, and that time will be 
indelible on my consciousness, so I will ask again then.
    I am trying to put together the agricultural jobs part of 
the immigration bill. As a matter of fact, we are negotiating 
between growers and the farm workers at this time. E-verify, as 
currently constructed, is not workable in agricultural 
settings.
    Last year, I sent a letter to Director Mayorkas asking for 
recommendations on how E-Verify can be modified to operate 
effectively in agricultural settings. In a response letter, he 
acknowledged the challenges faced. However, he did not provide 
any specific strategy on how his agency is working to address 
this issue.
    This is coming up. You know, are we going to include E-
verify? Are we not? How workable can it be? Can you respond to 
that?
    Secretary Napolitano. Yes. First of all, as I mentioned in 
my testimony, I believe national implementation of some worker 
verification system--E-Verify is the one we have--is central 
for immigration reform. It will actually reinforce what we do 
at the border. But with respect to agricultural workers, one of 
the problems is they are out in the fields. I mean, the farmers 
are out in the fields. So we have been looking at and testing 
mobile sites that can travel around and other kinds of 
technology that we can use to kind of put the E-Verify system 
where the growers are.
    Senator Feinstein. OK. I would like to follow up with this.
    Last question. One of the principles of our system is 
family unification. Under current law a citizen or a green card 
holder can bring in immediate family--spouse, children, 
parents, and minor siblings. The question becomes where we draw 
the line. It was really, as I think Senator Graham knows, a big 
part of the so-called grand bargain when we discussed 
immigration reform and it was on the floor several years ago.
    What do you believe is the appropriate place for this 
immediate family? The nuclear family? How many others should be 
included?
    Secretary Napolitano. Yes, this is an issue that has a lot 
of difficulty associated with it, I think, as we can all 
appreciate. I think what I would say at this point is that the 
President believes very strongly in family unification. How we 
have dealt with the three- and 10-year bar, I think, is 
evidence of that.
    We will work with you and with this Committee in terms of 
looking at the overall--what is the chain, how big is the chain 
that should be permitted under the law.
    Senator Feinstein. Do you have any studies on how many--
what is the average number of people someone on a green card 
brings in with them?
    Secretary Napolitano. I do not know, Senator. I will find 
out.
    Senator Feinstein. Would you? Because that might be 
helpful.
    [The information appears as a submission for the record.]
    Senator Feinstein. Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    Senator Grassley.
    Senator Grassley. Just a statement to follow up on 
something that Senator Feinstein said about entry and exit. We 
keep track of people coming in, obviously. When they go out, 
she cited cost, and there may be some cost to it, but I think 
it is important to emphasize that that is the law that we ought 
to keep track of that.
    Madam Secretary, I want to go to what I brought up in my 
opening statement, and let me say I probably hammer you because 
you did not answer letters, but there are other departments 
that do not answer letters either. I have got email here from a 
group over in the Defense Department that I sent a letter with 
78 questions in it, and a person in charge of that said, ``F 
Grassley, whether or not we are going to answer him.'' So, you 
know, we have got a problem throughout the entire bureaucracy, 
whether Republican or Democrat administrations, not responding 
to congressional oversight, a responsibility of ours under 
checks and balances of Government. So I have not gotten answers 
from you on this question, so I am going to ask about the 
person that is the sex offender that I referred to. And I think 
it is important that we get it.
    Agents at the field level apparently wanted to detain him 
as soon as possible for deportation in October of last year. 
Documents show the arrest was planned for October 5th but did 
not occur until December 6th. The delay appears to be related 
to political sensitivity of the case--that is the word we got--
and intervention by the headquarters.
    So did you or senior aides have any involvement in the 
delay? If you say no, that is okay with me. I just want to 
know. Did you have any involvement, or your senior aides, in 
that delay?
    Secretary Napolitano. Senator, I think I know the specific 
case you are referring to, and I did not learn about it until 
January, nor did my aides.
    I now have gone through the chronology of the case, and I 
can answer those questions for you.
    Senator Grassley. OK. When did you or officials at DHS 
headquarters first learn about this case? Was it before the 
December arrest? And I think you just said no, it was January.
    Secretary Napolitano. I speak for myself, Senator, but I 
first learned of it when the AP ran a story in January.
    Senator Grassley. OK. And so other officials, you do not 
know of other officials knowing about it before this same 
story?
    Secretary Napolitano. Correct.
    Senator Grassley. OK. If you were told a sex offender has a 
job working with children and if you have the legal authority 
to detain him on immigration violations, why would anyone wait 
a month and a half before taking action? Now, I know it is 
below your level. That is what you just told me. But why would 
anybody want to delay action on that?
    Secretary Napolitano. If I might, in this particular case, 
having looked at it, I think the real issue was why was there a 
delay between the adjudicated offense in 2010 to 2012, and I 
have asked my staff to look into that. He should have been 
removed at that point in time.
    In 2012, when you look at the chronology, a lot of things 
happened. One is the local prosecutor was considering doing 
something, so we usually defer to that. That is normal. 
Hurricane Sandy hit in the middle of everything. The 
prosecutor's office was closed for weeks. Our office was 
closed.
    So there are reasons for that part of the delay, but I 
think the more significant issue is what happened in those two 
years and why wasn't the original removal effected.
    Senator Grassley. OK. Now, a question that was not in any 
letters I wrote to you. It is about DACA eligibility. In a 
briefing to Committee staff, ICE staff said that having ``a 
juvenile delinquency adjudication'' does not make someone 
ineligible for DACA. They said that this sex predator would 
have been eligible for DACA despite his record.
    Now, to me, this is outrageous. Will you remedy this 
loophole given that you wrote DACA?
    Secretary Napolitano. Senator, the agents were wrong. There 
is a clear public safety exemption in the policy on DACA. I 
will resend the policy to the particular agents you reference, 
but they were simply incorrect.
    Senator Grassley. Thank you, and I think you are doing the 
right thing by doing that.
    This will have to be the last question I ask you. ICE 
policy states that high-profile or high-media-attention cases 
must be approved by headquarters. That policy looks like a 
dangerous invitation for political interference in law 
enforcement operations. These decisions should be made by 
career law enforcement professionals on the merits. Law 
enforcement should not be driven by political agendas.
    Why was there such a major disagreement between the law 
enforcement folks on the ground and senior folks at 
headquarters on when to take action in this case that we just 
discussed?
    Secretary Napolitano. Every case has particular facts. They 
are not all the same. And in this instance, as far as I can 
ascertain, you had USCIS turning down the DACA application, and 
you had ICE making sure we could effect the arrest and the 
removal, and they had to coordinate their actions.
    Senator Grassley. I have one more question.
    Chairman Leahy. Go ahead.
    Senator Grassley. OK. Thank you.
    After his arrest, the sex offender in this case was 
released on a $20,000 bond and is wearing a location monitoring 
bracelet. Allegedly, ICE Director John Morton approved this 
decision to release him on these conditions. Were you involved 
in that decision?
    Secretary Napolitano. I was not, but the provision of 
allowing bond is in the law.
    Senator Grassley. Do you approve of the decision that was 
made?
    Secretary Napolitano. If there is adequate supervision of 
the defendant, that is a common way to deal with some of these 
cases.
    Senator Grassley. And, last, has the Department taken any 
other steps to ensure that he is not around children? And if 
not, why not?
    Secretary Napolitano. I would have to look into the 
specific restrictions on his movement, but the fact that he has 
an ankle bracelet suggests that he is not to be around 
children.
    Senator Grassley. OK. Thank you very much.
    Chairman Leahy. Thank you.
    Senator Durbin.
    Senator Durbin. Thank you very much, Madam Secretary, for 
being with us, and I have a special interest in this line of 
questioning. Twelve years ago, I introduced the DREAM Act. It 
was a bipartisan measure, and not so much today, but I hope 
that that changes. We have had indications that many 
Republicans who voted against it in the past are reconsidering 
their positions, and I am glad they are.
    I also want to salute the President and your office for the 
Deferred Action for Childhood Arrivals, known as DACA, which 
basically gives to DREAM Act-eligible individuals a chance to 
stay in the United States. So far, my information suggests 
there have been more than 424,000 requests for this deferred 
action received by USCIS, and over 178,000 have been approved.
    When Congressman Luis Gutierrez and I held on August 15th 
an opportunity for those in the Chicagoland area to come 
forward and apply, we expected several hundred. Twelve thousand 
showed up. Many of them came with their parents. Some of them 
waited from midnight the night before in the hopes of being 
able to apply. Some of them are in the audience today, and they 
represent, in my view, a great opportunity for America to give 
these idealistic, energetic, committed individuals a chance to 
make this a better Nation.
    But we have drawn rules on the DREAM Act and on DACA that I 
think most Americans would agree are the right rules. Your 
response to Senator Grassley I think was spot on in terms of 
what we are trying to achieve here.
    In the particular case which he has noted, which has 
received some publicity, I might make this fact clear: This 
individual was not granted DACA. He was denied.
    Secretary Napolitano. That is right.
    Senator Durbin. He was denied this status. He has been 
arrested and placed in deportation proceedings, and that is 
entirely consistent with the administration's policy using 
limited resources to target the most serious offenders. The 
DACA rules are very clear. While juvenile delinquency is not an 
absolute bar to DACA, public safety threats are not eligible, 
and no juvenile with an adjudication for sexual assault will be 
granted discretion. That should be clear on the record. And for 
the thousands and thousands of young people who have applied, 
they know these standards going in. And to suggest that we are 
cutting corners for political reasons or not paying attention 
is not the case, to my knowledge. You are dealing with 
literally hundreds of thousands of cases. We are human, we are 
fallible. Some mistakes will be made. But let us make no 
mistake in establishing the sound and specific rules when it 
comes to the DREAM Act and to the application of DACA. And I 
thank you very much for that.
    Now, let me ask you a question which may be more difficult. 
Your critics--and there are some.
    Secretary Napolitano. I heard some.
    Senator Durbin. I am sure you did.
    [Laughter.]
    Senator Durbin. They suggest you are going too far in 
deportation proceedings. They are suggesting that, yes, anyone 
who is a threat to America with a criminal background should 
go. We understand that. I applaud that. That keeps America 
safe. But they are suggesting that the deportation efforts have 
gone beyond that into families that are no threat whatsoever 
and result in splitting up families. Many times mothers or 
fathers are removed from households full of citizen children.
    So what standards are being used when you talk about 
400,000 deportations beyond the obvious standard of deporting 
those who are a criminal threat to America?
    Secretary Napolitano. Well, the standards are spelled out 
in the various memos on prosecutorial discretion and how it is 
to be exercised. One factor to be considered, Senator, is 
whether the individual is the parent of citizen children, so 
that is a factor taken into account. But it is not 
determinative. Many times we find someone who is a parent and 
they have felony conviction or convictions or serious 
misdemeanors, and----
    Senator Durbin. That is another story. That is another 
story.
    Secretary Napolitano [continuing]. That will control the 
situation.
    Senator Durbin. And it should. I suppose what I am asking 
you to clarify, when you do not have that extenuating 
circumstance, when there is no threat to the public, when there 
is no criminal record, when you are breaking up a family, 
splitting up a family, what are the standards that are applied 
in those circumstances?
    Secretary Napolitano. Well, I would approach it a different 
way. If they do not fit any of the priority categories--you 
know, they are not a repeat violator, somebody is using the 
border as a revolving door; if they are not someone with a 
serious misdemeanor conviction or felony conviction; and if it 
would split up a family, that would be a low-priority matter.
    Chairman Leahy. If the witness would hold, we have a number 
of people that are blocking the view of those who have been 
sitting here for a long time waiting to watch this hearing. The 
police will please remove them.
    I think that--those who are blocking the view, please 
remove them. And I would think that those who come in here who 
feel strongly about something would have at least enough 
respect for human rights, one of the human rights is to allow 
the people who are here wanting to hear this testimony, to give 
them a chance to see and hear what is going on. And I am sorry 
that they feel that the rights apply only to them and not to 
others who are in the room.
    Please continue and I apologize to you and the Senator for 
the interruption.
    Senator Durbin. Thank you very much, Mr. Chairman, and my 
time has expired.
    Chairman Leahy. No, that is okay. Go ahead.
    Senator Durbin. I will just say to the Secretary and to the 
Members of the Committee, there is a genuine, good-faith effort 
underway, a bipartisan effort among Senators, and I am part of 
a group, four Democrats and four Republicans. We are doing our 
best to fix this broken immigration system. I could not agree 
with you more. It is a threat to America's future if we do not 
deal with it honestly and in a comprehensive and complete way.
    There are elements in this negotiation that go beyond my 
personal feelings about what should be done, but it is 
literally an effort to reach consensus and compromise. I know 
Senator Feinstein is engaged in a similar effort when it comes 
to agricultural workers. We have been encouraged by the 
President, but the President has made it clear he is anxious to 
move this on. And I hope we can meet his--allay his concerns 
about any delay here. And I thank you for accepting one of the 
most challenging, difficult, and controversial jobs in this 
administration.
    Secretary Napolitano. Thank you, Senator.
    Senator Durbin. Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    Senator Cornyn, you and I have discussed these immigration 
matters often. Please go ahead, sir.
    Senator Cornyn. Thank you, Mr. Chairman.
    Madam Secretary, I agree with Senator Durbin. You have got 
a very tough job. And you and I have known each other a long 
time, serving as Attorney Generals of our respective States and 
you as a U.S. Authority and as Governor and now in this 
important position. And, of course, we have been talking about 
immigration reform for a long time.
    In 2005, Senator Kyl, from your home State of Arizona, and 
I cosponsored a bill we called the Comprehensive Border 
Security and Immigration Reform Act of 2005. So this is like 
deja vu for a lot of us.
    But I believe that the reason that immigration reform 
failed in 2007 is because the American people do not actually 
believe that Congress intends to follow through on important 
measures like border security, worksite enforcement, visa 
overstays, and the like.
    So I just want to ask you some questions, first of all, 
about a story that I read from your appearance in San Diego on 
Monday, January 4th, where it quotes you as saying, ``I believe 
the border is secure.'' Is that an accurate quote?
    Secretary Napolitano. It is, but there is a context there 
that I would like to reference you to, which is to say the 
border is more secure now than it has been ever. The numbers 
are better now than they have been in decades. But as you 
mentioned, Senator, we have to build upon that. We have to 
sustain that. And that should be a part of the bill.
    Senator Cornyn. Well, let me refer you to a report of the 
GAO in 2010, which reflects the level of operational control of 
the border as of September 30, 2010. And as you can see, in red 
is the Texas-Mexico border, which represents the majority of 
the southwestern border. And you can see in the four sectors 
that represent the Texas border, the border is nowhere near 
secure. As a matter of fact, in the Marfa Sector, it looks like 
it is about 15 percent operational control; Del Rio looks like 
perhaps close to 30 percent; Laredo, about 20 percent; and the 
Rio Grande Valley, arguably 30 percent or so.
    So I do not believe that the border is secure, and I still 
believe we have a long, long way to go.
    Secretary Napolitano. If I might, Senator----
    Senator Cornyn. I have some other questions I want to ask 
you. As a matter of fact, a recent Government Accountability 
Office found that your Department failed to apprehend at least 
39 percent of illegal border crossovers in 2011. And, of 
course, as I travel the border in Texas, what the Border Patrol 
and others tell me on an anecdotal basis is that we probably 
catch about one out of every three individuals who try to make 
it across. But even assuming that the Border Patrol and the 
Department of Homeland Security was able to catch and detain 61 
percent of the people who traveled illegally across the border, 
is that a good record, in your view?
    Secretary Napolitano. Well, if I might, and let me, if I 
might, go back to the earlier point as well----
    Senator Cornyn. If you could answer my question----
    Chairman Leahy. Now, wait a minute. With all due respect to 
the Senator, you have asked two or three questions here. At 
least give the witness a chance to answer the question. It is 
not fair to ask a witness a question and then not allow them to 
answer.
    Senator Cornyn. Well, Mr. Chairman, I would ask her to 
answer my question. If she has further explanation, I am glad 
to hear it. The question is--the question is, just to refresh 
your memory: According to the General Accountability Office, 
the Department apprehends about 61 percent of people who 
crossed the border illegally in 2001. And my question is: Do 
you consider that a record to be proud of? Do you count that as 
success? Or how would you characterize it?
    Secretary Napolitano. I would characterize it as one of the 
many numbers that float around when the term ``border 
security'' is used. We know that border security is extremely 
important. We know we have done more in the last four years, 
actually with the help of this Congress and appropriations you 
have made, to deter traffic over this border.
    We know the main driver of illegal immigration across the 
Texas border, Arizona, California, whatever, is the ability to 
work. But we do not have the tools to support the border with 
effective worker requirements and prosecution tools against 
employers. So when you think about immigration reform, that is 
why all these things go together. It is a system.
    Now, with respect to that GAO report, I have read it, 
obviously. We disagree with the methodology, but beyond that, I 
think the overall conclusion of that report--and it is GAO, so 
you have to presume it is going to be negative because that is 
their job, is to find out things that are wrong. But the 
overall tenor of the report----
    Senator Cornyn. I thought it was determined what the facts 
were.
    Secretary Napolitano. We have different perspectives. We 
sit in different seats. But in any event, the overall 
conclusion of the report is, A, fewer people are trying to 
cross that border; and, indeed, other studies have shown that 
net migration is negative--in other words, more people are 
going south than coming north--and that substantial progress 
has been made.
    Are we done? No.
    Senator Cornyn. One last question. In Fiscal Year 2012, 683 
illegal aliens from terrorist sponsor and terror watchlist 
nations were apprehended coming across the southwestern border, 
so obviously people who--more than just people who want to work 
in the United States are penetrating our border and coming here 
from nations like Afghanistan, Iran, Libya, Yemen, Cuba, and 
Syria. And that led former DIA Director, the Director of the 
Defense Intelligence Agency, to conclude that this was a 
national security risk.
    Would you agree that having the border crossed illegally by 
people really at will from around the world and the limitation 
only being their determination to get here, that that 
represents a national security risk?
    Secretary Napolitano. Well, Senator, obviously we want the 
border to prevent likely terrorists from entering our country. 
Everybody would agree with that.
    What I would say further, however, is that by improving the 
legal migration system so that people can get visas, they go 
through our ports, we know who they are, we know what their 
biometrics are, we know where they are going, having an 
employer sanction system, will enable us to better focus on 
those who really are nefarious and are trying to do us harm.
    So if we want to say, look, we want you to focus on 
terrorists, narcotraffickers, transnational criminal 
organizations, one way to do that, and really the only way to 
do that, is to take some of these others and focus on the legal 
migration system.
    Chairman Leahy. Thank you.
    Senator Schumer.
    Senator Schumer. Thank you, Mr. Chairman. I apologize to 
you and my colleagues. I had to introduce Jack Lew over at the 
Finance Committee as a fellow New Yorker, which--well, I will 
not say anything.
    Secretary Napolitano. Well, I was born there so----
    Senator Schumer. That is what I was going to say, but I did 
not want to--you are almost a New Yorker, but a very successful 
Arizonan as well.
    First, I want to thank your boss, the President of the 
United States, for his remarks on immigration last night. 
Continuing his handling of immigration, his remarks last night 
on immigration were just right. He importuned us to act. He 
stated how important it was to get this done for the future of 
America. But at the same time, he did not make it a wedge 
issue. He made it clear that we had to act in a bipartisan way 
and gave us in our little group the space to come up with a 
bipartisan proposal, which we know is really our only hope. 
With a Democratic Senate, a Republican House, with the 60-vote 
rule, unless we have a bipartisan agreement, we are not going 
to have a bill. And the President is handling this just right, 
so I thank you and him for that, as well as thanking you for 
being here, because you have been such a strong voice on this 
issue. Since you were Governor of Arizona, you understand both 
the importance of immigration enforcement and having a 
functional legal immigration system that better reflects 
America's values and interests. And I believe we need to reform 
the immigration system, and we need reform that fixes all 
aspects of our broken immigration system.
    As I mentioned, our little group of eight, four Democrats, 
four Republicans, is really making good progress. We have a 
timetable. We still are looking to get this done in a very 
short period of time. Our Chairman has been both very insistent 
and gracious, like the President, in saying he will make time 
for us. But at the same time, we cannot take forever to get 
this done. And we are on track.
    The amazing thing in that room--and I think--well, Senator 
Durbin, who was here before, and Senator Graham, who is here 
now, and Senator Flake, who is here now, would agree that both 
sides know they have to give, and they are. And I have been 
really impressed in the room at the desire to get a bill done, 
and no one is seeking political advantage but, rather, doing 
what is right for America. And we have this bipartisan 
consensus around the principle that we need to further secure 
the border, reduce visa overstays, and crack down on unlawful 
employment of people without status.
    But all of us believe that it is going to be much easier to 
accomplish these things after we account for all of the people 
who are currently here without lawful status and allow those 
individuals living here peacefully and productively to earn 
legal status that allows them to work and earn their way toward 
citizenship. This way, our law enforcement resources, which are 
always not as much as we want, can focus on a smaller universe 
of criminals, future border crossers, future visa overstays, 
and employers who hire illegal workers because the people, the 
11 million who live in the shadows, have no criminal background 
and have met the early standards are going to work here 
legally. So it gives you an ability to focus on the people we 
do not want here.
    Do you agree with that premise?
    Secretary Napolitano. That is right, and I think that is 
consistent with what I just was sharing with Senator Cornyn.
    Senator Schumer. Right. And, by the way, with Senator 
Cornyn, I would just add something about the GAO report, and I 
would like to submit this page that has the statistics in the 
record. It is true that if you just look at apprehensions, it 
is a 61-percent number of people apprehended. But 20 percent go 
back. They see the Border Patrol agent, and they turn around. 
And those numbers in 2001 were an additional 107,000 in 
addition to the 254,000 apprehensions. So that makes the 
efficiency rate not 61 percent but 82 percent, compared to only 
66 percent in 2006.
    Are those numbers correct, in your judgment?
    Secretary Napolitano. Well, I cannot do the math in my head 
right now, but they sound correct. But if I might----
    Senator Schumer. They are in the report.
    Secretary Napolitano. Very good. But if I might, Senator, I 
think that, as I mentioned earlier, there are numbers flying 
all over the place about what the border is and what 
apprehensions are. Here is what I know. What I know is fewer 
people are trying to immigrate illegally into this country than 
in four decades.
    What I know is that apprehensions are at a low because 
attempts are at a low. Drug seizures, contraband seizures, all 
the numbers that need to be up are up. And what I know is we 
are actually removing more people from the country than ever 
before.
    Senator Schumer. And one other thing. At the request 
actually or the importuning of Senator McCain, in 2010 we had--
you asked for and we in Congress gave you 1,500 additional 
border personnel to the southern border, four new unmanned 
drones to boost further border surveillance and strengthen the 
presence of the FBI, DEA, and U.S. Marshals along the southern 
border. So it is much stronger today than it was in the past.
    Secretary Napolitano. Well, and the aerial assets make a 
huge difference. That is a big deal on border enforcement.
    Senator Schumer. And I have not--I am not going to ask any 
more questions. We have a ways to go on the border, and our 
group is working on that. We have made some progress--I would 
characterize our view we have made good progress, we have to 
make more. Is that pretty much your view?
    Secretary Napolitano. I think you can always do more on the 
border, yes.
    Senator Schumer. Thank you, Mr. Chairman.
    Chairman Leahy. Does the Senator wish to have that report 
made part of the record?
    Senator Schumer. Yes.
    Chairman Leahy. Without objection, it will be made part of 
the record.
    Senator Schumer. Thank you.
    [The report appears as a submission for the record.]
    Chairman Leahy. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman, and thank you, 
Secretary Napolitano, for your service to our country and for 
joining us today.
    The title of this hearing is ``Comprehensive Immigration 
Reform.'' The term ``comprehensive'' seems to accompany the 
term ``immigration reform'' with increased frequency these 
days. It is, nonetheless, worth mentioning, I believe, that our 
immigration system involves a lot of complex moving parts, but 
a lot of these parts are distinct from one another. And I 
believe we ought to have a robust and open debate over the 
proper way to handle each component without necessarily 
assuming that comprehensivity is the without which not of any 
kind of immigration reform.
    The good news is that Republicans and Democrats are not 
really that far apart on many, if not most, of the critical 
issues that we face when it comes to immigration reform. 
Virtually all of us agree that we need to secure America's 
border. We need to implement workplace verification. We need to 
reform and enforce our visa system, and we need to streamline 
legal immigration so that we can meet and respond to America's 
changing employment and economic needs.
    I think we have a real historic opportunity here to make 
some meaningful progress in areas where there is common sense--
where there is an opportunity for common-sense bipartisan 
agreement. That progress should not be held hostage, in my 
opinion, to demands that we solve every single problem 
associated with immigration, that we do it all at once, or that 
we have to resolve necessarily all of the most contentious 
issues associated with immigration before turning to those for 
which there is broad-based bipartisan agreement.
    That is why I have sponsored or cosponsored a variety of 
bills that would address employer verification, prioritize 
implementation of a visa exit system, promote tourism of the 
United States, help alleviate the shortage of legal 
agricultural workers in this country, and reform our visa 
system to attract the best and the brightest workers to 
contribute to the American economy.
    This morning, I will be introducing the Fairness for High 
Skilled Immigrants Act which would remove the per country caps 
on employment-sponsored visas, allowing the business community 
to recruit employees based on their talent rather than based on 
their country of origin.
    So in the spirit of constructive and common-sense reforms, 
I want to begin by asking you, Secretary Napolitano, which 
specific components of immigration reform do you think enjoy 
the broadest bipartisan support and could be implemented most 
swiftly and readily by your Department so we can begin the 
process of immigration reform?
    Secretary Napolitano. Well, Senator, I think the framework 
and what is in the framework that was announced really gives 
you--gives me, anyway, a sense of the bipartisan nucleus that 
is forming in the Senate. We want to work with you and work 
with the Members of the Senate to flesh that out and to get 
into some of the details because, as you mentioned, it is a big 
system.
    Senator Lee. Right. And I agree with you, there certainly 
are elements of that statement that enjoy broad bipartisan 
support, and there are other elements that do not, and that is 
why I would like to see us move forward first on those issues 
for which there is broad bipartisan support.
    Let me switch to another issue. In 2011, Immigration and 
Customs Enforcement Director John Morton issued two memoranda 
that outlined priorities for prosecutorial discretion. I was 
troubled by the issuance of those memoranda in some respects, 
and I remain troubled by their implementation.
    Chris Crane, who is a witness on the second panel here for 
this Committee today, submitted written testimony for today's 
hearing detailing some disturbing accounts of the 
implementation of this prosecutorial discretion directive, as 
it is known. Specifically, he recounts the experience of three 
ICE agents in Salt Lake City, Utah, who arrested an individual 
after he admitted in open court that he was in the country 
illegally. The ICE field office Director nevertheless ordered 
that all the charges be dropped and that the ICE agents 
themselves be placed under investigation for making the arrest.
    I understand that this is just one of many instances in 
which agents' ability to arrest offenders, admitted offenders, 
has been restricted. So if the approach to prosecutorial 
discretion outlined in the Morton memoranda is truly to be 
conducted on a case-by-case basis, as prosecutorial discretion 
is always understood to function--that is what prosecutorial 
discretion is, as the word ``discretion'' implies--and the 
memos do not constitute a blanket injunction on the pursuit of 
entire categories of offenders, why is it that ICE agents are 
being reprimanded for merely arresting someone who admitted in 
open court that he had broken the law?
    Secretary Napolitano. Well, Senator, I would have to look 
into the specifics of that, but as you know, sometimes the 
allegation or the statement that this is what happened does not 
actually explain all the facts. So we need to look at all the 
facts.
    But, you know, this is and the Committee should appreciate 
this is a big change for ICE to actually have priorities. In 
the past, every illegal immigrant was considered the same as 
every other illegal immigrant.
    Senator Lee. And I agree there ought to be some discretion.
    Secretary Napolitano. That is right.
    Senator Lee. But my question is----
    Secretary Napolitano. And there are no--I am sorry.
    Senator Lee. Is it discretion or is there an injunction 
against any enforcement?
    Secretary Napolitano. There is no injunction categorically. 
It is discretion with factors to be considered.
    Now, what was going on between an agent and their 
supervisor or what have you, there can be a lot of things that 
add to that situation. So we would have to know it better.
    Senator Lee. OK. Thank you, Madam Secretary. My time has 
expired. Thanks, Mr. Chairman.
    Chairman Leahy. Thank you, Senator Lee.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Madam Secretary, welcome back. It is good to have you here 
again. I wanted to congratulate you first on the Executive 
order that the President signed yesterday on cybersecurity and 
that he mentioned in the speech last night. I see Senator 
Graham here, and he is part of a bipartisan group that is 
working to try to supplement that effort legislatively, and we 
look forward to working with you on that. When we see a vaunted 
American institution like the New York Times, which is willing 
to have journalists go to jail to protect its sources, hacked 
into by the Chinese trying to find the sources for stories that 
are unflattering about the Chinese Government, that is a pretty 
good sign that the private sector is really not up to snuff on 
protecting our national security in this area. And the critical 
infrastructure folks who run our banking transactions and our 
electric power grids and so forth, I think, we have to be 
particularly concerned about, so I look forward to working with 
you on that.
    On the immigration bill, I have been a supporter of the 
high-skilled worker legislation--I know Senator Klobuchar has 
been very involved in that--with respect to providing visas for 
qualified immigrant entrepreneurs, with respect to limiting the 
per country caps that Senator Lee described, with respect to 
providing green cards to foreign students who graduate from our 
universities with science, technology, engineering, and 
mathematics degrees. But if they cannot work here, they have to 
go and work for an overseas competitor. In Rhode Island, I have 
seen folks who actually have internships with companies while 
they are students and then have to leave and go and work for a 
competitor.
    So I think this is important, and I wonder if you could 
take a moment to make the case for the record of this hearing 
as to why encouraging highly skilled immigrant engineers and 
entrepreneurs to stay and to locate in this country is good for 
American jobs and is good for the American economy rather than 
competing and displacing American jobs and the American 
economy.
    Secretary Napolitano. Well, I think the case for high-
skilled and STEM-educated workers is extraordinarily strong. We 
know we need more of them in the country. They complement not 
substitute for American workers. They become job creators. They 
add to economic growth. Some of our Nation's most successful 
companies over the last decade, even through the recession, 
were companies that were either started by or run by those who 
came here originally as immigrants.
    So it is a global talent pool that we want to have in the 
United States. We want to be a magnet for those types of 
individuals because, in the end, they are job creators.
    Senator Whitehouse. I will stand by that. Thank you very 
much, Madam Secretary.
    Chairman Leahy. Senator Cruz, I know you have been having 
some voice difficulty, but----
    Senator Cruz. Well, and I would apologize to the Committee, 
but I have lost my voice entirely--perhaps from cheering too 
much at last night's State of the Union.
    [Laughter.]
    Chairman Leahy. I had overlooked that, Senator Cruz.
    Senator Cruz. I will say this is an incredibly important 
topic. Secretary Napolitano, I thank you for being here. I 
thank each of the witnesses for being here, and I will be 
entering a statement into the record.
    Thank you.
    Chairman Leahy. Thank you, and it will be made part of the 
record. I appreciate you coming here, nonetheless.
    [The prepared statement of Senator Cruz appears as a 
submission for the record.]
    Chairman Leahy. We will go to Senator Klobuchar, and I will 
also leave the gavel with you for a couple minutes because I 
have to return a phone call outside.
    Senator Klobuchar. Well, thank you very much, Mr. Chairman. 
I had offered to do Senator Cruz's questions for him and just 
make a few nuanced changes and I would ask them, but he did not 
accept that offer, Madam Secretary.
    Thank you again, following up on Senator Durbin's comments, 
for not only taking this incredibly difficult job, but then 
staying with it. Whether it is the hurricanes, whether it is 
the floods, you have been there every step of the way, and 
certainly this will be--working on this comprehensive 
immigration reform, accountable immigration reform, is going 
to, I think, be a lasting legacy for you if we get this done. 
And I am very hopeful we will.
    Senator Whitehouse talked about the work that I have been 
doing with Senator Hatch, which also includes what Senator Lee 
mentioned, which is getting rid of the per-country cap on green 
cards, with the simple notion that we are the world's talent, 
that we want to be a country that makes stuff, invents things, 
exports to the world, and to do that we need to access the 
world's talent.
    Right now there are no caps on professional sports players. 
I know that from our great teams in Minnesota when you look at 
their roster. But we have very severe caps, as you know, on 
scientists and engineers, to the point where they are a third 
of what they were in 2001. So part of this--and we truly see 
this as part of this work. I have talked to Senator Rubio about 
this, who is also on our bill with 15 cosponsors, that this is 
part of comprehensive immigration reform, and we see it that 
way.
    One of the issues here is that when you look at Americans 
past, something like 30 percent of U.S. Nobel laureates were 
born in other countries. Ninety of the Fortune 500 companies 
were started by immigrants. And so this is a key part of how we 
build our country, how we have built our country, and how we go 
forward.
    I was intrigued by the beginning of your testimony when you 
talked about how sadly one of the reasons the current system is 
so broken is because it treats drug smugglers the same way as 
aspiring students. Could you expand on that a bit?
    Secretary Napolitano. Yes. Because the visas are so 
limited, when you have someone illegally in the country, that 
is it. They are illegally in the country. And so if you arrest 
everybody that you come across who is here illegally, they 
would be treated the same, regardless of circumstance.
    One of the things we have done through prosecutorial 
discretion is to take circumstances into account, but that is 
no substitute for statutory change.
    Senator Klobuchar. Exactly. We have a student right now--I 
have the president of St. Cloud State in Minnesota here to make 
this case yesterday for the State of the Union. One of his 
students runs their computer program, cannot get a green card, 
has been bouncing around on visas, is a technical superstar and 
is looking at taking permanent residence in Canada because it 
is just too difficult to get that green card here.
    Following up on what you just said about law enforcement, 
us both being former prosecutors, could you touch on one of the 
issues, getting away from the engineering and science issue 
here, of having so many people living in the shadows and how 
that is difficult for law enforcement? You raised that in your 
testimony. Could you expand on that?
    Secretary Napolitano. Well, what happens is, particularly 
in areas where there are large concentrations, people are 
afraid to go to law enforcement if they have been victims of a 
crime. They are afraid to be witnesses so that we can get at 
criminal prosecution. They are simply afraid to interact with 
law enforcement in any sort of productive way. And that is 
really a cloud on those communities. And if you speak with, as 
I did last week, the sheriffs in and police chiefs in places 
like Los Angeles, they really make that point about the effect 
on law enforcement of a large illegal immigrant population that 
has no way to get out of the shadows.
    Senator Klobuchar. And I certainly saw that as a county 
prosecutor. We would have cases where, you know, a kid, a 13-, 
14-, 15-year-old kid, would be threatened by a rapist, 
basically saying, ``If you come forward with this, I am going 
to get you deported.'' And that is one of the reasons in the 
Violence Against Women Act which we just passed we have a 
provision that continues in there for U visas, which allows 
victims of domestic violence to be able to stay and testify 
against their perpetrators. We had actually wanted to use up 
some of the old U visas--you may be aware of this issue--and 
had to change that in order to get this through. And I know 
that Senator Leahy, Chairman Leahy, is devoted to the idea of 
trying to get this as part of the comprehensive reform we are 
working on. But if you want to elaborate at all on the need for 
U visas for victims of domestic violence?
    Secretary Napolitano. Well, the whole issue of U visas, we 
are using up all the U visas that we get. We could use more in 
terms of protecting victims of domestic violence. But, again, 
every problem that gets referenced by a Member of the Committee 
I think just serves as further illustration why the whole 
system needs to be reformed.
    Senator Klobuchar. Very good. I appreciate your work. Thank 
you.
    Secretary Napolitano. Thank you.
    Chairman Leahy. Thank you very much.
    Senator Flake.
    Senator Flake. Well, thank you, Mr. Chairman. Thank you, 
Secretary Napolitano, and I appreciate the conversations we 
have had over the past years and as recently as yesterday on 
some of these issues. And I appreciate what the Department is 
doing and is trying to do and the support for our efforts here 
to get immigration reform done.
    I will touch on a few things that were touched on before. 
Keep in mind I am one of the Gang of Eight, if you will. I do 
want to get immigration through. I do not want any of the 
elements that we need to finish to hold up any of the other 
elements. So my effort here is to make it work, and there are 
some things that we need help on with regard to border security 
elements.
    As you know, as part of the framework, there are certain 
triggers that need to be tripped in terms of border security, 
and I know that is a difficult term to define. We have come up 
against that again and again and again. But part of the issues 
that we have, you mentioned that GAO at times they seem just to 
be critical of what a department is doing. I should note that 
with regard to the border in Arizona, they are quite 
complimentary of what is going on in the Yuma Sector, for 
example, so it is not the universal criticism. Where there are 
good things happening, where there is operational control, 
however defined, they tend to point that out. But they have 
noted that there are issues, and in the most recent report of 
December 2012, they note that the Border Patrol does not have 
performance goals and measures in place necessary to define 
border security.
    How are we dealing with that? What are we doing to remedy 
that problem? Do you recognize it as a problem, first?
    Secretary Napolitano. Well, the problem is, as you 
mentioned, Senator, to define border security. In my judgment, 
one way to look at it is if we have extra money to invest on 
immigration enforcement, is it better spent on more Border 
Patrol Agents? We can always hire more Border Patrol--I mean, 
we can always have a use for that. Or is it better spent 
investing in a worker verification program that really looks at 
the demand side of this issue? We do not have the tools 
necessary for that. The law does not give us those tools.
    In terms of things to look at that are objective, I think 
you can begin with some of the factors in the 2007 bill, you 
know, apprehensions, crime rates along the border. El Paso was 
for the third year in a row just named the safest city in 
America with a population of over 500,000. You can look at drug 
and gun and other contraband seizures. You know, all of those 
things that were listed in the 2007 bill are things that we can 
relook at again.
    But I would, if I might, suggest that the notion of a 
trigger is not--there is a better way to look at it because a 
trigger implies you do not get to these other things until X is 
met, when, in fact, these all have to be looked at 
simultaneously.
    Senator Flake. Oh, I understand that, and I have been one 
who has always said that the best way to get the border secured 
is to have a legal framework for people to come and to go.
    Secretary Napolitano. That is right.
    Senator Flake. And that will be taking place as we look at 
more border security. It is just the path to citizenship, that 
element that takes place years from now, that we have to 
certify a certain amount of border security_or certain level of 
border security, I should say.
    Part of the trouble we have is GAO--there was a RAND study 
a while ago that you may be familiar with that said that GAO 
reported in 2009 that the CBP, Customs and Border Patrol, 
explained increases in apprehensions made at a checkpoint in 
some border sectors to improved--it pointed to that as improved 
border security, and then in some sectors it pointed to 
decreased apprehensions as a measures of increased border 
security. So there seems to be confusion within DHS itself or 
within the Border Patrol as to what constitutes better security 
or lessened security. So you can see as policymakers we have a 
difficult time here, and it is tough for us to measure.
    My last question. If directed by Congress, is there 
anything stopping the Department from at least going back to 
what we were doing prior to 2010 where the charts that Senator 
Cornyn brought up, which defined operational control, the 
percentage of the border that is under operational control? I 
realize it is an imperfect measure, but it is something, and it 
is something more than we have now. Can we go back to that? If 
directed by Congress, could the Department go back to that 
measure? And if not, why not? The Department stopped reporting 
that as of 2010.
    Secretary Napolitano. I would suggest we should not go 
back, and I would suggest that the difference of opinion prior 
to 2009 that was referenced in that GAO report illustrates the 
difficulty of any one- or two-line description of what is 
border security.
    We want to work with the Committee on this. It is a 
difficult thing to substantiate. What we all know is we want a 
safe border, we want a strong border, and, importantly--and I 
have seen what happens when you do not do this. If you do not 
have the ability to sustain those efforts, you can have a 
problem again. So sustainment needs to be part of our equation.
    Senator Flake. All right. I have submitted some questions 
that you have, that we talked about, and I will look forward to 
getting those from you with regard to specifics on one ranch 
near Naco that gives us an illustration of, you know, what 
security we have and what we still lack. But if I could have 
your commitment to work with us on these measures, if not 
operational control then some other definition that will give 
us what the GAO refers to as--you know, they say, ``Currently 
what DHS has does not inform program results and, therefore, 
limits DHS and congressional oversight and accountability.'' 
And that is true. We lack that, and we need it, and it is for 
positive things. We are trying to get immigration reform done.
    Secretary Napolitano. That is right.
    Senator Flake. And so if we can work with you on that, it 
would be incredibly helpful.
    Secretary Napolitano. We will work with you very closely on 
this and understand the importance of the question.
    Senator Flake. Thank you.
    Chairman Leahy. Thank you.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Secretary Napolitano, thank you so much for your tremendous 
service to this country, and, of course, we are confronted with 
a broken immigration system, with 11 million undocumented 
people in our country, with millions of visa overstayers, and 
decades-wait for families hoping to reunite with their citizen 
members, family members.
    You used the term we are here to talk about common-sense 
changes that we can make to improve the system, and I am 
encouraged by the bipartisan support around the areas of border 
control, workplace enforcement, visa reform. But, of course, 
unless we get to some kind of a bipartisan agreement on 
addressing the 11 million people in this country who are living 
in the shadows, then I do not think that we are doing the kind 
of immigration reform that we need to do to bring us forward.
    There have been a number of questions about border control. 
The term ``operational control'' has been tossed out, and to 
some people, operational control means zero illegal border 
crossings. I think that we better make sure that we are using 
these terms where we are all on the same page. But let us say 
that we are talking about zero illegal border crossings. I 
would like to ask you, Madam Secretary, how much money do we 
spend every year on border control to keep out illegal 
crossers?
    Secretary Napolitano. Billions upon billions. There are 
some studies that suggest that you could add up all of the 
expenditures of every other Federal law enforcement agency and 
you would not equal the amount we spend on border security.
    Senator Hirono. And, of course, we are not at zero illegal 
crossings. So if we were to try to get to that goal, how much 
do you think we would need to spend every year? Because this is 
about cost/benefits. And you mentioned before that perhaps we 
could be using those kinds of sums for other types of 
immigration reform and control.
    Secretary Napolitano. That is right, Senator. You know, we 
are all living in a fiscally austere world. We have a 
responsibility to invest dollars where they would have the most 
benefit. I think as the Secretary I would advise the Committee 
that those enforcement efforts are better spent on the interior 
of the country on things like workplace enforcement while we 
sustain and fill in the technology and other things that we 
have already planned for along the border itself.
    Senator Hirono. I think that immigration reform should be 
guided by certain principles that reflect our values. There has 
been a lot of emphasis on meeting the critical needs of our 
economy through some changes to how we treat visas, especially 
with regard to people with STEM education. But I also think 
that another guiding principle should be maintaining our 50-
year tradition of bringing families together. And as I 
mentioned, many of my colleagues have highlighted the 
importance of providing green cards to STEM graduates of U.S. 
universities because I certainly agree that we should not 
educate foreign students and then send them away to work for 
foreign competitors of American companies, and it only makes 
sense to keep such talent here if we can.
    But at the same time as we are focused on employment-based 
immigration, we should not get tunnel vision and forget the 
human element of immigration. And, of course, I am talking 
about the need to expand, as far as I am concerned, to expand 
the opportunities for families to be reunited and kept 
together. And this should include LGBT families.
    I think family-based immigration is essential to ensuring 
the continued vitality of the American economy and, in fact, 
the success of immigrants in this country is often the story of 
the success of immigrants with their families. And, of course, 
I speak from personal experience, being an immigrant myself.
    I wanted to ask you about family reunification because 
there is such a huge, huge backlog there. The most recent visa 
bulletin indicates that potential immigrants must have been in 
line nearly 25 years in order to have their applications 
processed now. There is a significant backlog in family-based 
immigration to the United States, with Asian countries 
representing some of the largest backlogs.
    I am pleased that the President's immigration reform 
principles included temporarily increasing the per-country cap 
for family based immigration from seven percent to 15 percent. 
And so I wanted to ask you, if the cap were to be raised, as 
the President has proposed, what would you expect to see in 
terms of the reduction in the backlog that I talked about? And 
how long would you estimate that it would take to eliminate the 
family based backlog going back decades?
    Secretary Napolitano. By increasing the cap--I would have 
to go back and get a firm number for you, but there is no doubt 
it would be a substantial reduction in the backlog.
    Senator Hirono. Well, for example, in my own community 
there are World War II Filipino veterans who fought alongside 
our troops in World War II, and they have been waiting 
decades--decades--to be reunified with their children who are 
in their 60s at this point. And I hope that part of immigration 
reform can look to those kinds of very specific kinds of 
instances where perhaps it could get ahead a little bit 
because, you know, they did fight for our country.
    You were asked some questions about the fact that we have 
so many legal people who came to our country through visas, and 
I have been told that maybe about 40 percent, as much as 40 
percent of the undocumented people in our country are visa 
overstayers.
    Now, this is an issue that I know that we have been 
attempting to address for over a decade, and I think I heard 
that perhaps by 2013 we will get there, that we will be able to 
verify the overstayers. Could you talk a little bit more about 
truly what it is going to cost for us to put such a system in 
place? And how much are you going to oversee that we get to 
this 2013 timeframe?
    Secretary Napolitano. I think the 2013 timeframe, Senator, 
involved estimates of country-by-country overstays, and we will 
work with the Committee on that.
    In terms of being able to ascertain overstays, we have now 
gone back, and one of the things that technology permits us to 
do now is to link different data bases, and it has allowed us 
to go back and look at visa overstays and prioritize them as 
well, you know, those that have committed other crimes, for 
example, and then those are sent over to ICE to go find and to 
pick up.
    With the enhanced biographic system that we are 
implementing now, the difference between that and the biometric 
is not as great as you would think, and that is our current 
plan, to do enhanced biographic at the exits of our country, 
land, air, and sea, and then move gradually--because it is 
very, very expensive--into biometric.
    Chairman Leahy. Thank you very much.
    We will go to Senator Graham, then Senator Franken, and 
then we will move to the next panel. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. Thank you for 
having this hearing. I think this is an important hearing at a 
time when it will really matter.
    Madam Secretary, the goal, I guess, this time around is to 
fix a broken immigration system in a way that 20 years from now 
we will not have 11 or 12 million illegal immigrants? Isn't 
that the goal, to fix it?
    Secretary Napolitano. Yes.
    Senator Graham. I think the country is tired of talking 
about it. I think it is time for us to fix it with the goal in 
mind that there will be no third wave of illegal immigration.
    To put it in context, we are not being overrun by 
Canadians, are we?
    Secretary Napolitano. Not as far as I can tell.
    Senator Graham. Not as far as I can tell either. I love our 
Canadian friends. They come to Myrtle Beach in March.
    Secretary Napolitano. They come to Arizona, too.
    Senator Graham. They do, and they swim. I do not know why 
in March, but they seem to enjoy that. Then they go back home. 
And I would suggest that they go back home because Canada has 
got a stable government and a stable economy, and most of the 
people coming here are coming from pretty dire situations, and 
that is just a reality that a lot of people come to this 
country because where they live is not so nice. Do you agree 
with that?
    Secretary Napolitano. Yes, or their opportunity to raise a 
family and to thrive economically is diminished.
    Senator Graham. Right. I can understand why people want to 
come to America, but I do not understand why we cannot control 
who comes and on what terms. And I think we can if we choose 
to.
    Starting with the border, do you agree with me that you 
have got to have a secure border because if you have a bunch of 
other laws and you can still walk across the street in the 
country, you are probably not going to accomplish your goal?
    Secretary Napolitano. I think we can all agree that border 
security has to be part of a comprehensive plan.
    Senator Graham. I think that is the starting point, and I 
want to applaud you for making progress. You certainly have. 
There are nine sectors that we have laid out in terms of our 
borders. What I would like from your organization, your 
Department, is an inventory of what we can do that we have not 
yet done, and one through nine, give us a punch list and let us 
see if we can push this thing over the line and say the border 
is reasonably secure. So would you provide the Committee, if 
you could, with kind of an inventory of what is yet to be done 
that could reasonably be done in all nine sectors?
    Secretary Napolitano. Yes, we will work with you on that.
    Senator Graham. Also, I agree with you that you could build 
a 100-foot-high wall, and if you are getting a job pretty 
easily on the other side of the wall, people will go under it 
or over it or around it. So really E-Verify, controlling 
employment, is a virtual fence all of its own, is it not?
    Secretary Napolitano. I think it is, yes.
    Senator Graham. I just do not see how you could ever solve 
this problem if you do not deal with the magnet, which is jobs. 
If we cannot come up with a system where our employers can tell 
the difference between being here legally and illegally, we are 
never going to address this problem. So one of the key 
components is employer verification. Do you agree with that?
    Secretary Napolitano. I agree, and I would suggest, 
Senator, that the E-Verify system now is far different from the 
E-Verify system we----
    Senator Graham. We are moving in the right direction, but 
put yourself in an employer's situation. If you ask too many 
questions, like a Social Security card is pretty easily 
duplicated. If you like Ronald Reagan, I could make you Ronald 
Reagan by midnight. I could give you a Social Security card 
saying you are Ronald Reagan. We need to deal with that. And I 
think we are well on our way to doing it. So employer 
verification, and employers who cheat need to be hit hard. Do 
you agree?
    Secretary Napolitano. That is right. And the current law 
does not give us the tools to do that.
    Senator Graham. Well, you are going to get those tools, and 
those employers are trying to do the right thing. You have got 
to be frustrated by your own Government. We are going to give 
you some help.
    So temporary workers. The one thing the President did not 
mention last night was the temporary worker program. If I had 
to bet where this thing could run into a real roadblock, it 
would not be on the pathway to citizenship. As long as it is 
earned and it is not a special pathway, it will not be on 
border security because we are all signed up for that. I think 
E-Verify, some kind of new system to control employment, we are 
all signed up for that.
    But here is the friction point: Temporary workers are 
needed in the future, a legal source of labor for American 
employers. Do you agree with that?
    Secretary Napolitano. Yes, that concept is one I can agree 
with.
    Senator Graham. And the goal is not to displace an American 
worker. You can only get a temporary worker when there is no 
American available at a competitive wage.
    Secretary Napolitano. The devil is in the details. You have 
got to have appropriate protections for American workers and, 
indeed, for workers who are coming in to work.
    Senator Graham. And nobody wants to displace a willing 
American worker, but I can tell you, in South Carolina there 
are certain jobs, like in the meat-packing industry, as an 
employer you can advertise all day long, every day of the week, 
and you are not going to get that work force. And I do not want 
those meat-packing plants to leave the country. I want it to be 
a win-win where somebody overseas can come here temporarily and 
improve their life and help our employers. Do you agree with 
that?
    Secretary Napolitano. I agree with that, yes.
    Senator Graham. OK. So that is one of the goals, a 
temporary worker program that will meet the labor needs of this 
country. And demographically we are changing. There are three 
workers for every Social Security retiree today. In 20 years, 
there will be two. Do you agree with me that the demographics 
of America are changing and that we are going to need a more 
robust legal immigration system?
    Secretary Napolitano. Yes, and as I mentioned in my opening 
statement, it is part of economic growth.
    Senator Graham. I am running out of time. Just say ``yes,'' 
because you----
    Secretary Napolitano. I will say yes. This is a good cross-
examination.
    Senator Graham. And just say ``no'' when you need to.
    Secretary Napolitano. All right.
    Senator Graham. The bottom line here is it is not just the 
high-tech workers. God knows we are going to need--if you go to 
the University of South Carolina or Clemson University 
graduation, if Bob Smith comes across the stage in a Ph.D. 
program, everybody claps because there is only one. We are 
getting people from all over the world coming to our 
universities, and that is a good thing. Do you agree with me 
that they should not only get a Ph.D. in some kind of hard 
science, they should get a green card with that Ph.D.?
    Secretary Napolitano. Assuming no security issues, or crime 
issues, yes.
    Senator Graham. And assuming they are not displacing an 
American worker. We are losing a lot of valuable people. Just 
give me a little bit more time here, Mr. Chairman. So the 
bottom line is----
    Chairman Leahy. And then we are going to--as soon as you 
get this one last question, we will go to Senator Franken, and 
then we are going to the next panel.
    Senator Graham. I can do this in 30 seconds. Have you ever 
seen a better opportunity than the moment that exists today to 
pass comprehensive immigration reform that would prevent a 
third wave?
    Secretary Napolitano. No. This is the moment.
    Senator Graham. Do you agree with me that the payoffs for 
the Nation are enormous, we improve our national security, we 
improve our economy, and we deal with real people who have real 
problems, and we are trying to give them a second chance on our 
terms, and some of the people we are going to say you have got 
to leave because you have been up to no good? Do you agree that 
the payoffs of fixing this broken immigration system are 
enormous for the country?
    Secretary Napolitano. I could not say it better than you 
just did.
    Senator Graham. Thank you.
    Chairman Leahy. Thank you.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. And, Madam 
Secretary, it is good to see you, and it is so good that you 
can give me multiple-word answers if you like.
    [Laughter.]
    Secretary Napolitano. Thank you.
    Senator Franken. We have been hearing a lot of issues 
raised, family reunification. My office just heard of a story 
about a Minnesota green card holder, legal immigrant who filed 
to be reunited with his wife and four children in November 2010 
and is only now in February 2013 getting his application 
processed. So our system is broken when, if you do things 
right, you cannot see your wife and your four kids or cannot 
even get the application started going in about two and a half 
years.
    I am going to go to something that Senator Leahy brought 
up, which is dairy. Minnesota is the sixth largest dairy 
producing State in the country. It is an important part of our 
economy. But not enough Americans are taking these jobs, and 
dairy farmers cannot access the Federal agricultural Guest 
Worker Program because cows are not seasonal. They have to be 
milked. If cows were milked seasonally, you would have a lot of 
uncomfortable cows.
    [Laughter.]
    Senator Franken. I have had to leave during the hearing 
once.
    [Laughter.]
    Senator Franken. Anyway, so this is an old issue, and I am 
sure you are familiar with it. What is the administration 
planning to do in its proposal to help our Nation's dairy 
farmers and, more importantly, Minnesota's dairy farmers?
    Secretary Napolitano. The administration supports a number 
of reforms to the H-2A program which would deal with the dairy 
issue and fix it.
    Senator Franken. All right. In the United States, 
approximately 250,000--or 205 parents of United States citizen 
children were deported from this country from July 2010 to 
September 2012. We have seen firsthand in Minnesota how 
devastating these enforcement actions can be on families. I 
understand that DHS has produced two sets of guidelines on this 
issue: the first is a parental interest directive, which will 
help ICE personnel conduct enforcement actions in a way that 
does not necessarily hurt families; the other guidance ensures 
that ICE field teams actually ask parents where they want their 
children to go before they place the children in State custody. 
None of these documents has been issued publicly.
    What is the status of these guidelines? And what is DHS 
doing more broadly to protect children in enforcement actions?
    Secretary Napolitano. Well, my understanding is those 
either already have been issued or are about to be issued. I 
will follow up on that. But this really gets to one of the real 
hardships of the current immigration system. Where the parents 
need to be deported, for example, they meet our other 
priorities, what do you do with the citizen children? One of 
the things we look at is can one of the parents, you know, 
stay. One of the things we try to find out, are there other 
family members that can take the children if the parents agree 
to that? And then in some cases, we have to call in whatever 
the social agency involved in the State appears to be.
    Senator Franken. This is something that concerns me when an 
action is being taken, that during that period, during the 
hours or days that this has actually happened, the children 
have some contact with the parents and that the parents have 
some rights to be in contact with their children, because this 
is a very traumatic, can be a very traumatic, and we have seen 
this in Minnesota where we have had some actions take place 
where it has been very traumatizing for the kids and for the 
parents. And I just want to make sure--I have a little piece--
an important piece of legislation, not a little piece of 
legislation, to make sure that those kids have rights and those 
parents have rights during those kind of actions. I would love 
to work with you on that, Madam Secretary.
    Secretary Napolitano. You bet.
    Senator Franken. Thank you.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much.
    Senator Coons is here, and then Senator Cornyn says he has 
a 30-second question. But Senator Coons has not had an 
opportunity.
    Senator Coons. I am happy to defer to my colleague from 
Texas for 30 seconds.
    Chairman Leahy. For 30 seconds.
    Senator Cornyn. Thank you, Mr. Chairman.
    I just have one other question, Madam Secretary. It is 
estimated that there are between 4 and 5.5 million people who 
overstayed their visas--in other words, 40 percent of the 
illegal immigration in the country is caused not from people 
who have come across the border, which we have discussed, but 
people who come in lawfully but overstay their visa. Seventeen 
years ago, Congress, as you know, passed a requirement for an 
automated entry/exit system to record entries and departures 
for each one of these individuals.
    What is your plan to deal with 40 percent of the illegal 
immigration that is a result of visa overstays?
    Secretary Napolitano. Senator, in the interest of time, 
because there is another panel, why don't I come and brief you 
about all of the actions on visa overstays.
    Senator Cornyn. Well, if you would just answer my question, 
and then we can follow up with a further meeting if necessary.
    Secretary Napolitano. It is two phases. One is enhanced 
biographic at the exits of our country. That is being 
implemented and has been largely implemented already. We would 
like to move ultimately over time to a biometric exit system, 
but the money simply has not been made available.
    Chairman Leahy. Thank you.
    Senator Coons.
    Senator Coons. Thank you very much, and thank you, Chairman 
Leahy, for convening this important hearing today.
    Secretary Napolitano, thank you. Great to be with you 
again, and thank you for the very hard work that you and the 
Department have done within our complicated and outdated 
immigration system to prioritize our enforcement efforts and to 
make sure that we have a safer and a more just Nation.
    There is a lot more work to be done, and much of that needs 
to come from our work here in Congress in passing a modern and 
comprehensive immigration system. It is broken. Families are 
torn apart. Businesses are discouraged from investing and 
hiring, and we are not living up to our constitutional values 
and how we treat families of all kinds, including LGBT 
families, and how we treat folks who are not citizens but 
deserve due process of some reasonable kind in this very 
difficult immigration experience.
    What we are left with is a system that is very expensive, 
one that is expensive for law enforcement at the Federal level 
and the State and local level. It is expensive not just at the 
border but throughout the whole system. It is expensive for 
U.S. workers, for businesses, for taxpayers, and we can and I 
hope will do better.
    As you know, Secretary, one of the pillars of proposed 
comprehensive immigration reform is a path to citizenship for 
the millions of undocumented living here in the United States 
today. Under current law, what is the path to citizenship for 
someone who is currently undocumented but living in the United 
States? Is there a line for them to get on?
    Secretary Napolitano. Not really, no. If they are here 
illegally and leave and try to re-enter the country, that is 
one circumstance. But we look at prior removals, prior deports 
as a barrier.
    Senator Coons. And if someone is able to get on to the 
current wait lists for a green card based, say, on a family 
connection, a relationship to a U.S. citizen, what are the 
requirements they would then have to meet to at some point have 
a shot at becoming a U.S. citizen?
    Secretary Napolitano. They are extensive, and they are very 
lengthy. And I think the point of looking at the immigration 
system as a whole, Senator, is for those in the country right 
now who are here illegally to have a pathway to earn 
citizenship, to pay a fee, pay a penalty, learn English, take 
American civics, and then get in the back of the line.
    Senator Coons. In the context of comprehensive immigration 
reform, there has been some discussion about equality, equal 
treatment of LGBT Americans being a divisive issue or a side 
issue that does not deserve the kind of focus that it may get 
in this deliberation. I just want to thank you for what you 
have done administratively to recognize the special 
circumstances faced by families with LGBT members. But you 
cannot build a family on deferred action. Could I get some 
commitment that you will cease deportations of same-sex 
partners, of Americans who would otherwise be eligible based on 
status?
    Secretary Napolitano. We cannot give a categorical answer 
there because of DOMA, and we are charged with enforcing DOMA 
as well.
    Senator Coons. Well, I look forward to continuing to work 
with some of my colleagues who are cosponsoring legislation to 
repeal DOMA.
    I would like to ask about the implementation of the 
Consequence Delivery System that DHS uses, including the Alien 
Transfer Exit Program. It is a program that takes families who 
have entered one sector of the border, say California, for 
example, and separates the members of that family by deporting 
some members along other places, Arizona or Texas or elsewhere.
    In implementing this process, how does the Department 
ensure it does not harm or in any way victimize asylum seekers 
or vulnerable women or children? And does this system allow for 
an officer's discretion in how they assign consequences for a 
particular immigrant and whether it might result in a family 
disruption or in a health, safety, or life risk?
    Secretary Napolitano. Obviously, those seeking asylum, 
there is a separate process for those who are requesting 
asylum. But we have found that one of the deterrents for 
repeated illegal immigration is to make sure that there is some 
consequence for every illegal immigrant that we apprehend at 
the border, and that is the so-called Consequence Delivery 
System, one part of which can be the lateral movement across 
the border before the actual deport.
    Senator Coons. One of our highest objectives, I would 
think, in the enforcement actions taken by the Department is to 
focus on removing those who pose a threat to our community--
criminals, violent criminals in particular. And the policy you 
are now following under Deferred Action for Childhood Arrivals 
has meant that many young people, the so-called DREAM Act kids, 
no longer live in constant fear of deportation, although they 
have an uncertain future, which I hope we will be addressing 
through legislation. And these young people continue to 
contribute to our country.
    From the perspective of the Department, could you tell me 
if this policy, this Deferred Action for Childhood Arrival 
policy, has resulted in increased availability of Department 
resources to focus on higher-priority cases such as identifying 
and removing, deporting, violent criminals?
    Secretary Napolitano. I think we can say that, yes, it 
does. But more importantly, I think the Deferred Action program 
is consistent with our values as a country and our recognition 
that these young people are not to blame for being in the 
country.
    Senator Coons. Well, thank you. And, Madam Secretary, as 
somebody who as Attorney General, as a Governor, and as 
Secretary has tackled what are very difficult issues, I am 
trying to make sure that we square our core values with what is 
a very political and difficult situation. I just want to thank 
you for your personal leadership, and I look forward to 
continuing to work with you on this.
    Secretary Napolitano. Thank you, Senator.
    Senator Coons. Thank you.
    Chairman Leahy. Thank you very much.
    Senator Flake had a letter to be included in the record at 
the appropriate point.
    [The letter appears as a submission for the record.]
    Chairman Leahy. You had a closing statement?
    Senator Grassley. Not a closing statement. Just thank the 
Secretary, an understanding I assume we have that questions 
will be submitted for answer in writing. Several people on my 
side wanted a second round, but out of respect for the other 
panelists, we are not going to do that. But the Chairman 
promised that we would have an oversight hearing with you later 
on this spring, and we can pursue all questions at that time. 
But some people will obviously want to pursue questions on 
immigration.
    Thank you very much.
    Secretary Napolitano. Thank you.
    Chairman Leahy. Thank you.
    Madam Secretary, thank you very much for being here. I 
think there is a growing consensus, I hope there is a growing 
consensus among both Republicans and Democrats in the Senate 
and in the other body, that we need--what button did you press, 
Chuck?
    Senator Grassley. I thought I just turned my microphone 
off.
    Secretary Napolitano. We need light on the subject. That is 
right.
    Chairman Leahy. We need light on the subject. But I think 
there is a growing consensus in both bodies that we need real 
immigration reform. I am committed as Chairman of this 
Committee to put together a bill with the help of both 
Republicans and Democrats which we will bring to a vote in the 
Committee and have something come to the Senate floor.
    I worked with former President George W. Bush when we had 
tried once before to do this, but I think the time is even more 
right now. Obviously I come from a State where we do not face 
the problems that some of my colleagues do from States on the 
southern border and from your own home, but all of us know that 
there are other issues beyond just the border in immigration.
    Secretary Napolitano. That is right.
    Chairman Leahy. And as a parent and a grandparent, I worry 
very much what is happening to children and families.
    So I appreciate your work, and both from our private 
conversations and public conversations, I know how dedicated 
you are to getting immigration reform, and we will work 
together. So thank you very much.
    Secretary Napolitano. Thank you.
    Chairman Leahy. And if the staff could set up for the next 
panel.
    Secretary Napolitano. Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    Chairman Leahy. I am going to ask the panel to please stand 
to be sworn in. Do you swear that the testimony you are about 
to give before the Committee will be the truth, the whole 
truth, and nothing but the truth, so help you God?
    Mr. Vargas. I do.
    Ms. Vaughan. I do.
    Mr. Case. I do.
    Mr. Crane. I do.
    Ms. Murguia. I do.
    Chairman Leahy. Thank you. Let the record show all were 
sworn in, and I thank you for being here.
    We will begin from your right to left, my left to right, 
with Jose Antonio Vargas, a former Washington Post journalist. 
He is part of the team that won the Pulitzer Prize for covering 
the tragedy at Virginia Tech. Those of us who either live or 
spend time in this area have read those articles, wishing that 
we were not reading them, wishing the event had not happened. 
The Pulitzer Prize is well deserved. In many ways, Mr. Vargas 
served as a whistleblower about the intractable situation in 
which so many who were brought to the United States as children 
find themselves. They speak on behalf of millions who cannot 
speak for themselves to shed light on the human impact of our 
immigration system.
    Mr. Vargas, please go ahead. And we will hear from each of 
you, and then we will ask questions.

STATEMENT OF JOSE ANTONIO VARGAS, FOUNDER, DEFINE AMERICAN, NEW 
                         YORK, NEW YORK

    Mr. Vargas. Thank you, Chairman Leahy, Ranking Member 
Grassley, and distinguished Members of this Committee.
    I come to you as one of our country's 11 million 
undocumented immigrants, many of us Americans at heart, but 
without the right papers to show for it. Too often, we are 
treated as abstractions, faceless and nameless, subjects of 
debate rather than individuals with families, hopes, fears, and 
dreams.
    I am in America because of the sacrifices of my family. My 
grandparents legally emigrated from the Philippines to Silicon 
Valley in the mid-1980s.
    A few years later, Grandpa Teofilo became a U.S. citizen 
and legally changed his name to Ted--after Ted Danson in 
``Cheers.''
    Because grandparents cannot petition for their grandkids 
and because my mother could not come to the United States, 
Grandpa saved up money to get his only grandson, me, a passport 
and a green card to come to America. My mother gave me up to 
give me a better life.
    I arrived in Mountain View, California, on August 3, 1993. 
One of my earliest memories was singing the National Anthem for 
the first time at Crittenden Middle School, believing the song 
had somehow something to do with me. I thought it said, ``Jose, 
can you see?&
    Four years later, I applied for a driver's permit like any 
16-year-old. That was when I discovered that the green card 
that my grandpa gave me was fake.
    But I wanted to work. I wanted to contribute to a country 
that is now my home. At age 17, I decided to be a journalist 
for a seemingly naive reason: If I am not supposed to be in 
America because I do not have the right kind of papers, what if 
my name, my byline, was on the paper? How can they say I do not 
exist if my name is in newspapers and magazines? I thought I 
could write my way into America. That was the plan.
    As I built a successful career as a journalist--paying 
Social Security and State and Federal taxes along the way--as 
fear and shame, as denial and pain, enveloped me, words became 
my salvation. I found solace in the words of the Reverend 
Martin Luther King, quoting St. Augustine: ``An unjust law is 
no law at all.''
    Ultimately, it took me 12 years to come out as an 
undocumented American--because that is what I am, an American. 
But I am grateful to have been able to tell the truth. And in 
the past few years, more undocumented people, particularly 
young DREAMers, are coming out, telling the truth about the 
America we experience.
    We dream of a path to citizenship so we can actively 
participate in our American democracy, this church.
    We dream of not being separated from our families and our 
loved ones, regardless of sexual orientation, no matter our 
skill set. This Government has deported more than 1.6 million 
people--fathers and mothers, sons and daughters--in the past 
four years.
    We dream of contributing to the country we call our home.
    In 21st century America, diversity is destiny. That I 
happen to be gay, that I happen to speak Tagalog, my first 
language, and that I want to learn Spanish--that does not 
threaten my love for this country. How interconnected and 
integrated we are as Americans makes us stronger.
    Sitting behind me today is my Filipino American family: my 
Grandma Leonila, whom I love very much; my Aunt Aida Rivera, 
who helped raise me; and my Uncle Conrad Salinas, who served, 
proudly, in the U.S. Navy for 20 years. They are all 
naturalized American citizens.
    I belong in what is called a mixed-status family. I am the 
only one in my extended family of 25 Americans who is 
undocumented. When you inaccurately call me ``illegal,'' you 
are not only dehumanizing me, you are offending them. No human 
being is illegal.
    Also here is my Mountain View High School family--my 
support network of allies who encouraged and protected me since 
I was a teenager. After I told my high school principal and 
school superintendent that I was not planning to go to college 
because I could not apply for financial aid, Pat Hyland and 
Rich Fischer secured a private scholarship for me. The 
scholarship was funded by a man named Jim Strand. I am honored 
that Pat, Rich, and Jim are all here today. Across the country, 
there are countless other Jim Strands, Pat Hylands, and Rich 
Fischers of all backgrounds who stand alongside their 
undocumented neighbors. They do not need to see pieces of 
paper--a passport or a green card--to treat us as human beings.
    This is the truth about immigration in our America. And as 
this Congress decides on fair, humane reform, let us remember 
that immigration is not merely about borders. ``Immigration is 
in our blood . . . part of our founding story,'' writes Senator 
Ted Kennedy, former Chairman of this very Committee, in the 
introduction to President Kennedy's book, ``A Nation of 
Immigrants.'' I carry it around with me.
    Immigration is about our future. Immigration is about all 
of us.
    And before we take your questions here, I have a few of my 
own: What do you want to do with me? For all the undocumented 
immigrants who are actually sitting here at this hearing, for 
the people watching online and for the 11 million of us, what 
do you want to do with us?
    [Applause.]
    Mr. Vargas. And to me, the most important question as a 
student of American history is this: How do you define 
``American''? How do you define it?
    Thank you so much for having me here today.
    [The prepared statement of Mr. Vargas appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Mr. Vargas.
    Jessica Vaughan is the Director of Policy Studies for the 
Center for Immigration Studies where she has worked since 1992, 
specializing in immigration policy and operations.
    Incidentally, I forgot to mention at the beginning that 
your whole statements will be placed in the record as though 
read. I have tried to be a little flexible with the time, but I 
am trying to keep close to the time because several other 
hearings are going on. That is why Members have been coming in 
now.
    Ms. Vaughan, please go ahead.

   STATEMENT OF JESSICA VAUGHAN, DIRECTOR OF POLICY STUDIES, 
         CENTER FOR IMMIGRATION STUDIES, WASHINGTON, DC

    Ms. Vaughan. Thank you. So far, the comprehensive 
immigration reform proposals all include the same basic 
elements: amnesty for 11 million illegal immigrants; increases 
in legal immigration; and promises of stronger border security 
and immigration enforcement measures.
    But this package would not only repeat the mistakes of IRCA 
from 1986; it would compound the immigration problems we 
currently have and fail to deliver a system that serves our 
citizens' economic needs.
    Now is not the time to create new flows of immigration that 
will put Americans at a disadvantage, especially in exchange 
for promises of enforcement that are unlikely to be fulfilled. 
Instead, lawmakers should take the approach that has worked in 
recent years, which is to look for more narrow agreements 
focused on areas of broad consensus.
    How did IRCA fail? The amnesty parts were a great success, 
at least for the three million people who were legalized. But 
illegal immigration continued, and now we have nearly three 
times as many illegal residents as we did in 1986. This is 
because the Government only relatively recently has gained some 
control of parts of the southwest border and never followed 
through with the enforcement of employer sanctions.
    The Workplace Enforcement System of IRCA was built to fail. 
The INS put more resources into outreach than enforcement, and 
much like today, what few sanctions were imposed were no more 
than a slap on the wrist. The result was that employers failed 
to take the law seriously.
    The American public understands why IRCA failed. According 
to a new poll my organization just commissioned, when asked why 
there is a large illegal population in the country, 71 percent 
of voters answered that it is because we have not made a real 
effort to enforce our immigration laws. Only 18 percent think 
it is because we are not letting in enough legal immigrants.
    Not only was the enforcement end of the grand bargain 
scuttled, the Government also failed to enforce the rules of 
the amnesty program to make sure that only the right people 
were legalized. It is estimated that as many as 25 percent of 
the approved applications were based on fraud. Fraud is to be 
expected in any immigration benefits program, but in this case, 
the Government was willing to look the other way, even in cases 
of obvious fraud.
    One of the worst examples was Mahmud Abouhalima, a cab 
driver from New York City, who was approved as a farm worker 
and later went on to help blow up the World Trade Center in 
1993.
    Based on what we have seen so far with the DACA program, it 
is reasonable to worry that any new legalization program will 
be administered with a similar indifference to fraud.
    USCIS has yet to report more than a single denial out of 
the more than 400,000 applications submitted. As in IRCA, USCIS 
has established a generous system for DACA where applicants are 
presumed to be eligible, claims are rarely verified, and failed 
applicants get to stay anyway, for all intents and purposes 
immune from immigration law enforcement.
    Before considering another large-scale amnesty, we need to 
shore up enforcement of immigration laws in order to prevent 
another surge in illegal immigration. Some progress has been 
made, but we cannot check the box off quite yet. Some of the 
metrics suggest a significant decline in enforcement activity 
over the last few years. Border Patrol apprehensions were up 
again in 2012 by nine percent. ICE arrests in the interior have 
been trending downward since 2008, and the Investigations 
Division, they have gone down 70 percent in the last few years.
    It appears that the number of absconders is rising. ICE has 
reported that there are 850,000 aliens present in the country 
who have been ordered removed or excluded, but who have not 
departed. These numbers do not support the Obama 
administration's claims to have set a record for deportations.
    ICE also has released tens of thousands of deportable 
criminal aliens in recent years. According to the Congressional 
Research Service, these aliens went on to commit 58,000 new 
crimes in a two and a half year period, including more than 
5,000 major or violent criminal offenses and more than 8,000 
DUI violations.
    Similarly, DHS has failed to address the problem of the two 
dozen or so countries that refuse to accept back their citizens 
who have been ordered removed. More than 12,500 aliens, the 
majority of whom were likely criminals, have been released from 
ICE detention in recent years, and it could be as high a total 
of as many as 200,000.
    If properly managed, immigration can serve the national 
interest, but today we are issuing more new green cards and 
work visas than we can absorb in our labor market without 
disadvantaging the millions of unemployed Americans who are 
competing in these same occupations. The result has been a 
measurable decline in wages for many, in addition to lost 
opportunities. This has affected engineers, teachers, and 
nurses, but also those Americans who lack a higher education 
and are already struggling to move up the ladder. Employers 
will have little incentive to improve working conditions and 
wages as long as there is a steady stream of replacement 
workers.
    Last, a mass amnesty will be costly as newly legalized 
residents will now be eligible for the services and subsidized 
health care from which they were previously barred, and we 
estimate that this could cost tens of billions of dollars per 
year. Instead, lawmakers should start smaller, tackling issues 
like better workplace enforcement and compliance, amnesty for 
illegal aliens brought by their parents at a young age who grew 
up here with a path to citizenship, ending the visa lottery and 
other programs that do not serve our national interest, 
completing the entry/exit system, reforming the immigration 
court system, expanding Federal and local law enforcement 
partnerships, and rebalancing our legal immigration system to 
admit a larger proportion of immigrants who will be self-
sufficient.
    Before accepting any large-scale legalization program, 
people need to have some confidence that the laws will actually 
be enforced and that such an amnesty will not cause another 
surge of illegal immigration, and see meaningful and sustained 
commitment to attaining control of the borders and enforcing 
immigration laws in the interior in a transparent way.
    [The prepared statement of Ms. Vaughan appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    Steve Case is the chairman and CEO of Revolution, co-
founder of America Online, and chairman of the Case Foundation, 
an accomplished entrepreneur, philanthropist, member of 
President Obama's Council on Jobs and Competitiveness, and, I 
would also note, a valued and valuable member of the 
Smithsonian Institution's Board of Regents.
    Mr. Case, please go ahead, sir.

STATEMENT OF STEVE CASE, CHAIRMAN AND CHIEF EXECUTIVE OFFICER, 
                 REVOLUTION LLC, WASHINGTON, DC

    Mr. Case. Thank you, Senator Leahy, and it is an honor to 
serve with you on that Smithsonian Board of Regents, and it is 
also an honor to be invited to speak to you and the Committee 
today.
    I want to share my perspective on an issue that I think is 
central to our history and also critical to our future.
    I appear before you today as an entrepreneur, an investor, 
a civic leader, and a colleague and friend of talented 
immigrant entrepreneurs and innovators who devote themselves to 
their companies and contribute to this country.
    To understand this debate in context, it is necessary to 
remember that the story of America is in part the story of 
entrepreneurs who settled this land seeking a better life and 
who through grit, hard work, and creativity built companies, 
cities, and whole new industries that power the strongest 
economy the world has ever known.
    Our country did not become the world's leading economy by 
luck or accident. Iconic Fortune 500 companies that employ 
thousands of Americans did not simply come to be. Revered 
American cities like New York, Chicago, and Los Angeles did not 
sprout up by chance. New industries for telephones, airplanes, 
and the Internet were not conceived by happenstance.
    It was the work of pioneering entrepreneurs--beginning with 
the country's earliest settlers, our Nation's first immigrant 
entrepreneurs--who took a risk hoping to turn dreams into 
startup businesses.
    From the earliest days, immigrant entrepreneurs started 
some of America's most celebrated enterprises. U.S. Steel, 
Pfizer, Kraft Foods, Honeywell, Goldman Sachs, AT&T, and Yahoo! 
were all started by immigrants. Today, 40 percent of Fortune 
500 companies in the United States were started by immigrants 
or the children of immigrants--40 percent.
    Between 1995 and 2005, half of Silicon Valley startups had 
an immigrant founder.
    And this is not just about technology companies. When Hamdi 
Ulukaya, an immigrant from Turkey, hired four employees to 
begin packaging yogurt by hand in upstate New York, his friends 
thought it was a crazy idea. Eight years later, Chobani Yogurt 
generates $1 billion in sales, has hired 1,500 American 
workers, and is expanding operations all across the country.
    Mr. Chairman, high-skilled immigrants have always been job 
creators, not job takers. The mistake that opponents of 
immigration reform often make is believing that our society and 
economic growth are zero sum. They are not. More talented 
immigrants joining the American family does not equate to fewer 
jobs; it equates to more jobs.
    Others argue that instead of allowing more high-skilled 
immigrants to stay we should instead focus on better training 
and STEM education for America's youth. But this is a false 
choice. We can and must do both: Draw the best and brightest 
from across the globe, and develop more talented students here 
at home.
    But every year, arbitrary immigration caps force 
approximately one-third of the 50,000 foreign-born STEM 
graduates from our universities to leave the country. If our 
military had such a policy, we would train soldiers, sailors, 
and pilots at West Point, the Naval Academy, and the Air Force 
Academy only to then send them away to join the militaries of 
other nations. I think we would all agree that that would be 
crazy. But our immigration policy, particularly around high-
skilled immigrants, is equally crazy.
    Meanwhile, as we as a Nation grow complacent about the 
global battle for talent, our global competitors are stepping 
up their game.
    China launched the ``1000 Talents Program'' to attract 
talented researchers back to the country. Australia grants 
nearly as many employment-based green cards as the United 
States, despite having an economy that is 14 times smaller. 
Canada recently announced a new startup visa program that 
grants permanent residency to foreign-born innovators who 
receive backing from Canadian investors.
    But sadly, here in the United States we are making it 
harder for innovators to come and to stay. A few months ago, I 
was having breakfast with a group of young entrepreneurs in 
Chapel Hill, North Carolina, when I met Deepak, a young, up-
and-coming star in the Research Triangle area. Deepak was born 
in India, has a Ph.D. in genetics from the University of North 
Carolina, and his health care startup has achieved 40 percent 
month-over-month growth. Yet his green card status remains 
uncertain, and as a result, Deepak is having difficulty 
convincing investors to fund his expansion. Deepak is ready to 
hire more employees in Raleigh. Instead, he waits.
    And there are stories like this all over the country. A few 
decades ago, we lost ground in the manufacturing sector when we 
failed to respond aggressively to global competition. We cannot 
afford to do the same when it comes to the entrepreneurial 
sector.
    The good news is that numerous bipartisan, high-skilled 
immigration proposals have been teed up in recent months that 
contain smart reforms. The Startup Act permits entrepreneurs 
and STEM graduates to stay and start businesses. The I-Squared 
Act increases the amount of available green cards and removes 
the per country cap for employment-based visas. The Startup 
Visa Act allows foreign entrepreneurs to move to the United 
States as long as they have financial backing. The SMART Jobs 
Act slows the STEM ``brain drain'' by adding a new non-
immigrant F-4 visa. Chairman Leahy has introduced a compelling 
idea based on the EB-5 program that is working in his home 
State of Vermont.
    President Obama has called for stapling green cards to the 
diplomas of American-educated immigrants with STEM degrees, and 
the bipartisan Gang of Eight, including many in this room, has 
agreed on a framework to admit the skilled workers necessary 
for a competitive economy.
    I defer to the men and women on Capitol Hill and at the 
White House to determine which of these specific provisions 
make up the final plan, but this much is clear: We must enact 
measures that enable talented entrepreneurs to start businesses 
here in the United States.
    For over a decade, there has been a discussion of the need 
to update our laws and give our country the tools to win the 
global battle for talent, and yet nothing has happened. At this 
critical time, I believe the best way to win adoption of high-
skilled immigration reforms is to make them part of a 
comprehensive immigration reform package that also addresses a 
path to citizenship for undocumented workers living in our 
country, deals with border security, and also sanctions on 
employers who break the law. Such a comprehensive package is 
essential not only for its potential to spur our economic 
growth, but because it also can address the family and human 
issues that are also at stake in this emotional debate. And 
with the leadership in the Senate and this Committee in 
particular, it can get done.
    A few months ago, I stood next to President Obama and 
Republican Majority Leader Eric Cantor in the Rose Garden after 
they joined together to pass the JOBS Act, Jump-Starting Our 
Business Startups Act, on behalf of our Nation's entrepreneurs. 
Pundits said it would never happen, particularly given it was 
an election year. But it did. Bipartisan progress is possible 
during moments in Washington when diverse groups of citizens 
call for action. On immigration, this is the moment for 
Democrats, Republicans, and Independents to come together and 
pass comprehensive reform.
    Mr. Chairman and Members of the Committee, thank you for 
your time.
    [The prepared statement of Mr. Case appears as a submission 
for the record.]
    Chairman Leahy. Well, thank you, Mr. Case. I appreciate 
that very much.
    Our next witness is Chris Crane, the president of the 
National Immigration and Customs Enforcement Council 118 of the 
American Federation of Government Employees. He currently 
serves as an ICE deportation officer. Am I correct on that?
    Mr. Crane. Yes, sir.
    Chairman Leahy. Your full statement will be placed in the 
record, but please go ahead, sir.

 STATEMENT OF CHRIS CRANE, PRESIDENT, NATIONAL IMMIGRATION AND 
 CUSTOMS ENFORCEMENT COUNCIL 118 OF THE AMERICAN FEDERATION OF 
              GOVERNMENT EMPLOYEES, WASHINGTON, DC

    Mr. Crane. Good morning, Chairman Leahy, and thank you, as 
well as honorable Members of the Committee.
    On Saturday, I was contacted by a man whose son was killed 
by an alien who was driving without a license. The alien had 
failed a driver's exam multiple times but decided to drive 
anyway. While attempting to flee the scene, the alien drove 
over the man's son approximately four times. Two years later, 
the father is still attempting to have the alien who killed his 
son deported.
    In 2010, an illegal alien, again driving without a license 
as well as being intoxicated, killed one nun and maimed two 
others. The case made national headlines. Many in America 
called for Secretary Napolitano's resignation. Last week, that 
alien was sentenced to 20 years in prison.
    Statistics show that unlicensed drivers kill 8,400 people 
in the United States each year. That is 700 deaths every month. 
Yet according to ICE's new prosecutorial discretion policies, 
driving without a license is just another traffic offense. And 
because of that, ICE agents cannot arrest illegal aliens 
without licenses unless they have already potentially injured 
someone.
    ICE recently proposed a three-day suspension for an ICE 
agent who arrested an illegal alien with multiple convictions 
for driving without a license and who was attempting to operate 
a vehicle in the agent's presence. While seeking disciplinary 
action against the agent, ICE simply released the alien without 
charge, putting yet another unlicensed driver behind the wheel.
    Secretary Napolitano describes these new policies as smart 
and effective. I can assure you they are neither.
    I think most Americans assume that ICE agents and officers 
are empowered by the Government to enforce the law. Nothing 
could be further from the truth. With 11 million illegal aliens 
in the U.S., ICE agents are now prohibited from arresting 
illegal aliens solely on charges of illegal entry or visa 
overstay--the two most frequently violated sections of U.S. 
immigration law. Agents report that of they encounter suspected 
illegal aliens in the public, they cannot arrest them. Their 
instructions are that only if an alien is first arrested by 
local police on criminal charges may ICE agents and officers 
consider making an immigration arrest.
    If an alien is arrested by local police and placed in jail, 
again, ICE agents may not arrest them for illegal entry or visa 
overstay. New policies require that illegal aliens have a 
felony arrest or conviction or be convicted of three or more 
misdemeanors, so many illegal aliens with criminal convictions 
are also now untouchable.
    ICE agents apply the DREAM Act provisions and DACA not to 
children in schools but to adult inmates in jails. If the 
inmates claim to be DREAMers and claim to qualify under DACA, 
agents must take the illegal alien's word that they do qualify. 
No investigation is conducted. There is no requirement that the 
illegal alien provide proof such as a high school diploma or 
college transcript.
    The fact that as a law enforcement agency ICE has any 
national policy or practice that simply relies on an 
individual's word as grounds for stopping an enforcement action 
is yet further proof that ICE's new policies are neither smart 
nor effective.
    For this and many other reasons, ICE is crumbling from 
within. Morale is at an all-time low. As criminal aliens are 
released to the streets and ICE instead takes disciplinary 
actions against its own officers for making lawful arrests, it 
appears clear that Federal law enforcement officers are the 
enemy and not those that break our Nation's laws. Whether it be 
our current immigration laws or future reforms, all will fail 
as long as individuals can pick and choose which laws enacted 
by Congress will be enforced. Operationally, ICE is not 
prepared or able to properly perform its mission, and the 
interior of the U.S. is not secure.
    In closing, for the last four years, President Obama has 
excluded ICE officers and agents from all input on immigration 
reforms as well as ICE and DHS arrest policies. For that 
reason, yesterday a letter was sent to the President requesting 
that ICE agents be invited to future meetings as special 
interest groups representing illegal aliens have been for the 
last four years.
    To the Members of this honorable body, I extend a warm and 
sincere invitation to call upon me at any time as we would very 
much like to assist you in your efforts to fix our broken 
immigration system.
    With that, that concludes my testimony. Thank you.
    [The prepared statement of Mr. Crane appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Mr. Crane.
    The last witness is Janet Murguia, president and CEO of the 
National Council of La Raza, the largest Hispanic civil rights 
organization in the Nation. She served in the Clinton White 
House, including as Deputy Assistant to the President. She is 
one of four siblings trained as lawyers. Two siblings, I might 
mention, currently serve as Federal judges, and I was 
privileged to be here at the time both of them became Federal 
judges.
    This is not your first visit to this Committee. We thank 
you for being here.

   STATEMENT OF JANET MURGUIA, PRESIDENT AND CHIEF EXECUTIVE 
      OFFICER, NATIONAL COUNCIL OF LA RAZA, WASHINGTON, DC

    Ms. Murguia. Thank you, Mr. Chairman, and I also want to 
thank Ranking Member Grassley for giving me this opportunity to 
appear before the Committee today. And in addition to my 
written statement, I want to also request that over 265,000 
petitions in favor of legalization and a path to citizenship be 
entered into the public record.
    At the outset, I want to join the growing consensus that 
Congress has a historic opportunity to pass immigration reform 
this year. Fixing our broken immigration system is in the best 
interest of our country. Immigration should be orderly and 
legal and uphold our Nation's values. Reform must include: a 
road map to legalization and citizenship for eligible 
immigrants; smart, workable enforcement; and a legal 
immigration system that serves families, workers, and our 
economy.
    For Latinos, this issue is personal. As the recent election 
demonstrated, Hispanic voters generated the game-changing 
moment for immigration, giving us the opportunity to finally 
achieve a solution. And our role is growing. An average of 
nearly 900,000 Latino citizens will turn 18 every year between 
now and 2028. Our community is engaged and watching this debate 
very closely.
    This is urgent because the effects of a failed system on 
our economy and on our country are unacceptable. But I must 
note that the failure to enact immigration reform has not meant 
inaction on immigration enforcement. In fact, by nearly every 
standard, more is being done to enforce immigration laws than 
ever before. And detention, prosecutions, and deportations are 
at all-time highs.
    Of course, for some people no amount of enforcement will 
ever be enough, but for our community, current enforcement 
levels are already intolerable, because virtually all of us, 
undocumented, permanent resident, and citizen alike, are 
affected. And despite all this enforcement, the notion that we 
would deport 11 million people is an ugly nightmare, and the 
notion that they will leave on their own is a fantasy.
    So what should we do? Independent commissions have called 
for earned legalization with a road map to citizenship. And it 
is easy to understand why. No healthy society can tolerate the 
existence of a subclass of people outside the scope and 
protection of the law. And continuing a situation where we 
collectively nod and wink because our society benefits from 
their labor is unacceptable. When our laws do not reflect 
reality, reality will win every time.
    That is why if we are to restore the rule of law, the 
single most essential element of immigration reform is an 
earned legalization program with a clear, achievable road map 
to citizenship--not because enforcement is unimportant, but 
because that is all we have done, and restoring the rule of law 
requires that we do both.
    Most undocumented immigrants are long-term U.S. residents; 
they work hard, pay taxes, and otherwise abide by our laws. 
They provide for U.S. citizen spouses and children. Some came 
here as children, and this is the only country they know and 
consider home. Their lives are inextricably linked with ours.
    The interests of our country are best served by allowing 
them to come forward, pass a background check, pay taxes, learn 
English, and earn the ability to apply for citizenship just 
like every other group of immigrants before them.
    A majority of Americans support earned legalization with a 
road map to citizenship. The American public puts a special 
premium on citizenship because they want to see immigrants all 
in--not partially in, not in a special status, but in the same 
boat as everyone else.
    The Latino community, three-quarters of whom are citizens, 
will not look kindly at legislation that condemns people to 
second-class status. They want to see a clear path. We 
understand that there will be questions about how long the 
process should take and what specific requirements need to be 
met. But if the process is unreasonable, the Latino community 
and I believe most Americans, will consider the program 
disingenuous.
    We now have the opportunity for a real solution that will 
serve our country from the farm fields in the South all the way 
to Silicon Valley. Some of the people we are talking about 
provided the food we will eat today. Others are at this moment 
caring for our children, our parents, or our grandparents. And, 
yes, many are ready to help support our technology, math, and 
engineering needs.
    You have the power to help our economy and our Nation by 
passing immigration reform, and in so doing, you will be 
helping America's immigrants, our neighbors, our fellow 
churchgoers, and for many of us our family members.
    I cannot help but feel the spirit of Senator Kennedy here 
today, and I think if he were here, he would say: ``You are 
right. Now let us get to work and get this thing done.''
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Murguia appears as a 
submission for the record.]
    Chairman Leahy. And I might say, if our friend Senator 
Kennedy was here, he would be able to say it without using a 
microphone.
    [Laughter.]
    Chairman Leahy. And you would hear it in the halls.
    Incidentally, I am going to put in the record an op-ed 
piece that Mr. Vargas had in the New York Times this morning.
    [The op-ed appears as a submission for the record.]
    Chairman Leahy. I want to ask a few questions, and then I 
am going to turn the gavel over to Senator Coons because we 
have a court of appeals judge on the floor, and I have to go 
and handle that and hopefully get Mr. Kayatta through. He has 
been delayed for months and months and months.
    Mr. Case, you are known as an entrepreneur, investor, and 
chair of Startup America. You have built companies, you mentor 
companies, and you have heard the things about why we need more 
immigrants. We have Americans out of jobs. They need jobs. Why 
do we try to increase opportunities to bring foreign workers? 
And yet we have also seen bipartisan coalitions. Senator Hatch, 
Senator Klobuchar, for example, joined together and introduced 
legislation on this.
    Why is it good to create more visas for foreign skilled 
workers when we have people having trouble finding employment 
here?
    Mr. Case. I think the best answer is, as I tried to say in 
my testimony, that the immigrant entrepreneurs and innovators 
and engineers that are creating some of our fast-growing 
companies then create jobs both within those companies and more 
broadly within those communities. I saw this when AOL was 
growing in Northern Virginia. It was not just that we had a 
1,000 employees, but it created thousands and probably tens of 
thousands additional jobs in terms of housing and restaurants 
and services and other things that were part of that community 
when it was rising.
    Conversely, a few months ago I was speaking to some 
entrepreneurs in Detroit, and I was struck by two things. The 
first was that 50 years ago Detroit really was Silicon Valley. 
It was the most innovative place in the Nation, maybe in the 
world, when the automobile business was on fire. But then 
Detroit, for a variety of reasons, mostly related to 
globalization, lost its entrepreneurial mojo, and in the last 
50 years it has lost 50 percent of its population. As a result, 
Detroit has kind of been in free fall. Now they are trying to 
stabilize and fight their way back. We need to make sure as a 
Nation that we do not lose our entrepreneurial mojo, and the 
talent piece of that is central, that any organization is only 
as good as its people, any country is only as good as its 
people. So we really need to be a magnet for talent because 
these people are innovators.
    As I mentioned, 40 percent of the Fortune 500 companies 
were started by first- or second-generation immigrants. I would 
hate for those companies to have been started somewhere else. 
And other nations are stepping up their activities. There is 
the phenomenon of the globalization of entrepreneurship as they 
recognize entrepreneurship is the secret sauce that powered our 
economy, has driven us to our leadership position in the world, 
and they are trying to knock that off and make it really easy 
for people to go there. And we need to make sure we do not get 
complacent.
    Chairman Leahy. Are you saying that these high-technology 
positions would help more than just the technology companies?
    Mr. Case. Absolutely. There are two reasons. First of all, 
almost every company now is a technology company. Even 
retailers and the service industry, restaurants, manufacturing, 
things around advanced manufacturing, additive manufacturing 
they all have a strong technology component. So when we talk 
about technology, I think people look at it too narrowly and 
think of it as software companies or Internet companies in 
Silicon Valley. The phenomenon around technology is much 
broader, and the need for engineering talent all across our 
Nation and all across our industry sectors is much broader. So 
that is the first.
    The second, though, as I mentioned, it is not just the 
direct jobs that are created by these innovators who take 
companies that started with a handful of people, dozens of 
people, hundreds of people, sometimes thousands or tens of 
thousands of people, but the ripple effect, the network effect 
of those companies and their success and growth has more 
broadly in the community, creating jobs across many sectors of 
our economy.
    Chairman Leahy. I was struck by something you said about 
the legal--I am sort of compressing it--the legal, social, and 
moral imperatives of comprehensive immigration reform speak to 
our character as a Nation. You know, we all have immigrants 
somewhere in our background. My immigrant grandparents created 
jobs. My wife's immigrant parents created jobs. They made it a 
better community.
    But with that, Ms. Murguia, I think when you said in your 
testimony that the notion that we would deport 11 million 
people is an ugly nightmare, I hope that everybody in this room 
would agree with that. But we also know the status quo is not 
sustainable.
    How would you respond to people--and I have heard this 
said--who have said that anything short of mass deportation is 
amnesty? How do we respond to that?
    Ms. Murguia. Well, I would just disagree----
    Chairman Leahy. Make sure your microphone is on.
    Ms. Murguia. Well, I would just disagree. I think that 
amnesty is a pardon with no penalty, and we have made it clear 
that the kind of earned legalization on the table does not 
pardon anyone, and by any definition, includes penalties. It 
requires participants to admit an offense and pay a penalty, 
pay taxes, learn English, and go back to the end of the line of 
those already waiting for citizenship. And I think there is a 
vast difference between saying that something is amnesty when 
it is a clear pardon. And so I would say that it is clearly 
not.
    Chairman Leahy. Thank you.
    Mr. Vargas, my time is up, but I am introducing the Uniting 
American Families Act with Senator Collins, saying that 
preserving family unity should be part of our immigration 
policy. Of course, Senator Durbin has led on the DREAM Act, 
which I strongly supported.
    What is the significance of these two pieces of legislation 
in your mind?
    Mr. Vargas. I think any talk of reform in this country, 
inclusion must be at the heart of it, because diversity is at 
the heart of this country. We come in all shapes and forms.
    One of the things that I found really interesting listening 
to the House hearing, I think it was last week actually, with 
Ms. Vaughan and Mr. Crane, was a lot of the conversation about 
low-skilled--I have been to Alabama, I have been to Georgia. I 
can tell you that there is nothing low-skilled about harvesting 
fruits and vegetables and that people who are ``low-skilled'' 
must be as protected as high-skilled in the same way that 
heterosexual couples--same-sex binational couples should be 
afforded the same rights that are given heterosexual couples. 
It is simply an issue of equality.
    You know, when DACA, when Deferred Action was announced 
last June, I have a dear friend sitting here, Gabby Pacheko, 
who has been an activist for a long time, and she qualified for 
DACA, and I do not. I am four months older. I remember she--I 
saw her in the morning when we found out the announcement, and 
she said, ``Do not worry. We are not done. We will take care of 
you.'' And I know she means that. And we must mean that. We 
must make sure that in an America that is about inclusion that 
everyone is included in reform, that one group is not favored 
over the other.
    Chairman Leahy. Thank you very much.
    I will yield to Senator Sessions, and, Senator Coons, if we 
could trade places up here and you take the--and I thank the 
panel very much. I apologize for having to leave. It is only 
because of the court of appeal matter on the floor. And Ms. 
Murguia remembers when her sister was up for a similar one and 
how important it is. But I appreciate all of you being here, 
every one of you. It is important to the debate. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Chairman Leahy.
    I appreciate all of you coming, your comments, and as we 
discussed, this is an important national issue. Mr. Vargas, 
would you agree fundamentally that a great nation should have 
an immigration policy and then create a legal system that 
carries that policy out and then enforces that policy?
    Mr. Vargas. Yes, sir.
    Senator Sessions. I would just say that is a fundamental 
question of value, because the United States is not able to 
have an open border and allow everybody that would like to come 
to this country come. I know there was a poll in Peru a number 
of years ago when we were in Peru that said 70 percent would 
come to America if they could. I saw a poll in Nicaragua, and 
60 percent would come to America if they could. So we have to 
make decisions about how that is done so it does not disrupt 
socially and economically the Nation.
    Mr. Case, I know you are again rallying with a group of 
special interest groups. The President had them at the White 
House recently. Ms. Murguia was there, you were there. Mr. 
Crane was not there. Anybody who knows anything about how the 
system actually operates on the ground was not there. I do not 
think anybody representing the broad-based American public was 
there.
    So I think we have got a problem here. We have, as Mr. 
Crane just dramatically indicated, a serious unwillingness to 
enforce even the most basic laws.
    When President Obama took office, I remember vividly that 
there was a raid at a plant, I think on the west coast, and 
they immediately apologized. Apparently they told Ms. Murguia 
in La Raza they would not do that anymore. And so the agents 
were disciplined, and everybody that was found to be there 
illegally, they were allowed to keep their jobs. And that was a 
signal that went right out through law enforcement all over the 
country.
    And so do the American people worry about this? I think 
they do. 1986 is so fundamental. The amnesty occurs like that--
the regularization, if you do not want to call it amnesty. That 
occurs immediately, and so we promise somehow in the future 
that we will have an enforcement mechanism. So we had three 
million people here illegally then, and now we have 11 million, 
because the word went out that if you get into America, you too 
will sooner or later get amnesty. And we are right back here in 
that position.
    So we need to see, the American people need to see a real 
commitment, one that is truly so, to make the laws real and the 
policies real, and we are not going to be taking a pig in a 
poke. And there is a lot of overconfidence about this bill. I 
do not think that--this legislation is not what the Members 
said and goes further actually than the Members say about it, 
the group that is working on it, and I really respect them. If 
it does not really work, it is not going to pass. We are going 
to expose it. I am going to read the bill, and others will. So 
we are going to look at that. It has got to end.
    Clearly, we need a policy that serves the national interest 
of the United States. So that means we have to decide how many 
people can come, how many engineers will not be employed 
because we open the world to bright engineers all over the 
world, people that our children and grandchildren--will they 
not be able to get a job? I think it is not so to suggest that 
you will have no impact on wages or jobs.
    I remember Senator Kennedy and I debated the question about 
wages. I suggested that large flows of labor will pull down 
wages. He did not dispute it. He said, ``Well, we will fix it 
by raising the minimum wage.'' Well, I do not want people 
operating at the minimum wage. I want them operating two, three 
times the minimum wage. So the President was talking minimum 
wage last night. It reminded me of that.
    So, Mr. Case, I do think that the Canadian plan--I think 
maybe your friend from Microsoft--we have talked about this--
has got a good plan, that if we move in that direction, it 
would be appealing to me.
    I have talked too long.
    Mr. Crane, has the President or anyone in the 
administration or Congress--well, in the administration asked 
you or any of your officers about their evaluation of how to 
improve the immigration law?
    Mr. Crane. No, Senator. In fact, what we see is that the 
special interest groups are brought in to ICE headquarters, to 
DHS headquarters. They put out lists bragging, you know, 100 or 
more special interest groups that they are bringing in to work 
on the policies, and they completely shut us out to the point 
where even our union rights have been taken away from us and we 
cannot even communicate with the agency through our basic union 
rights. And they have an army of attorneys opposing each and 
every single thing that we do just as a union to try to get 
involved in any of our law enforcement policies to look out for 
the best interests of our officers.
    Senator Sessions. Briefly, has Secretary Napolitano 
formally in any official way reached out to the union to find 
out why you voted no confidence in your Director, Mr. Morton?
    Mr. Crane. No, sir. In fact, I have never met Secretary 
Napolitano, never shook hands with her or anything.
    Senator Sessions. Well, I have called for Mr. Morton to 
resign. I think he has failed in his fundamental duty to 
enforce the law and maintain the morale of the people that we 
pay to do their jobs every day.
    Mr. Chairman, my time has concluded. Thank you very much.
    Senator Coons. [presiding.] Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you to all the witnesses.
    Mr. Vargas, I just would first like to thank you for your 
touching, heartfelt story. You can tell why you are good 
journalist. And I was thinking here, as I was listening, that 
you are not just a DREAMer, but you are a doer, that you are 
not simply an amnesty seeker, as some people here might 
characterize it, but you are a taxpayer. And so I want to thank 
you for that and ask if you could respond to this framework 
where either we just keep the status quo because we are unable 
to get something done, which I just will not accept, or, in 
fact, we up deportations of people like yourself. What would 
happen to you if that happened? And what is your 
counterargument in response to what you have heard?
    Senator Sessions. Mr. Chairman, could I just have one 
second before you start on that, Senator Klobuchar.
    Senator Klobuchar. Yes.
    Senator Sessions. I would offer for the record a series of 
documents provided by Mr. Crane, one being his letter to the 
President asking that National ICE Council be included in 
future immigration meetings, and other documents.
    Senator Coons. Without objection.
    [The information appears as a submission for the record.]
    Mr. Case. I am sorry. If I could, Senator Sessions, I just 
want to correct one thing for the record. You mentioned that 
there was a meeting I attended with the President and special 
interests. I have actually never attended a meeting with the 
President on this issue with special interests. I was invited 
to attend a meeting with a dozen CEOs of companies like Coca-
Cola and Marriott who were talking about pragmatic solutions to 
get the economy moving, and one of the key focuses was 
immigration, and there was a broad sense that the country 
needed to move forward. So the focus really--if I represent any 
special interest, it is just doing my part to make sure we 
remain the world's most entrepreneurial Nation, and winning 
this global battle for talent is central to that. I just wanted 
to correct that.
    Senator Sessions. Well, we did have a document that 
suggested that that could have been incorrect. Thank you.
    Senator Klobuchar. OK. Mr. Vargas, welcome to our hearing. 
So DREAMer versus doer, we are back talking about amnesty 
seeker versus taxpayer, and how you respond to this and what 
would happen to you if we simply just kept the status quo and/
or we just upped deportations.
    Mr. Vargas. First of all, the status quo is untenable. I 
think we all agree that we cannot--that the situation cannot 
keep going the way that it is. This past weekend, I was with 
Erika Andiola. She is a DREAMer who is also a doer, graduated 
from college, who one night ICE just knocked at her door and 
grabbed her mom and her brother. Thankfully, she got on 
Facebook, and I think there were like 300 of us that jumped 
right in, got on a conference call: ``How do we do this?&
    It should not be lost on anyone the surreal nature of even 
this hearing, the fact that I am sitting here on the same table 
as Mr. Crane and Ms. Vaughan. And before I kind of dive into 
what you said, I think we need to define our terms. And when we 
talk about what is in the national interests of the country, 
you know, I have been to Alabama. I spent some time there. I 
have been to Alabama to talk to someone like Lawrence Calvert, 
for example, who is a Republican, who is a farmer, who once 
H.B. 56--you know, that out Arizona'd Arizona's immigration 
law--was passed, Lawrence Calvert said, ``Wait a second. It is 
not right for this State to say who my friends can be. My best 
worker is this guy Paco.'' He is such a best worker that there 
is actually a room in Mr. Calvert's house called the 
``Guatemalan suite'' for Paco.
    So, you know, when Senator Sessions talks about the 
national interests of Americans, I think about Lawrence 
Calvert. I think about the national interests of my principal 
and my superintendent who are here today. I feel as if we have 
been having the exact same conversation on immigration for the 
past decade. We invite the same people to talk about the same 
thing as if immigration is all about border security. I came 
here from the Philippines. My border was the Pacific Ocean.
    We talk about immigration and enforcement as if we are 
talking about alien people from Mars and not human beings whose 
lives and whose families are being torn apart every day.
    NCLR, which has been referred to as an interest group, 
represents 55 million Latinos in this country. That is not an 
interest group.
    Senator Klobuchar. Thank you, Mr. Vargas, because I wanted 
to ask one more question here of Mr. Case. I am sure we can 
talk later, but I really appreciate your answer, and I think 
people need to think about who they are talking about.
    Mr. Case, you talked about how, in fact, people do not 
always see how this can create jobs. I think you said, `The 
mistake that opponents of immigration reform often make is 
believing that our society and economic growth are zero sum. 
They are not. More talented immigrants joining the American 
family does not equate to fewer jobs; it equates to more 
jobs.'' And there have been many studies, one commissioned by 
Mayor Bloomberg and Mayor Castro that showed, I think, 1.8 jobs 
for every holder of one of these visits that come in, another 
one up to five jobs that are created.
    Could you talk about your personal experience with this?
    Mr. Case. That is absolutely true. I have invested--not 
just helped start AOL and create the Internet, but then 
invested in a couple dozen different companies, and many of 
them started by immigrant entrepreneurs. So I have seen 
firsthand the job creation leverage of that, and as I said 
earlier, it is not just the direct impact of those companies, 
it is the broader impact.
    Frankly, when I hear this discussion about immigration_and 
this morning's discussion was reflective of it--it is usually 
framed as a problem we need to solve. I think it is an 
opportunity we need to see.
    Senator Klobuchar. Exactly.
    Mr. Case. And while there is a moral prism aspect, there is 
a political prism aspect, I look at it through the economic 
prism aspect. And if we are going to remain the leading economy 
in the world and we are going to boost our growth rate from two 
percent to three, four, five percent, which I think is the only 
way we are going to solve our fiscal problems long term, the 
talent issue is central because all the job creation and 
economic growth comes from these innovative entrepreneurs who 
are starting companies and growing their companies and growing 
their communities.
    So this really is about the future of the country and how 
do we seize this opportunity to remain the world's most 
entrepreneurial nation. As I said before, we are getting 
complacent. Other nations are probably laughing at us. 
Recently, Canada announced a policy around the Startup Visa 
Program and said they are going to go to Silicon Valley, fly 
the Canadian flag, and say, ``Stop messing around in the United 
States. Come here. We welcome you. We are going to give you a 
visa.''
    Senator Klobuchar. And no one knows that better than 
Minnesota because we can see Canada from our porch.
    [Laughter.]
    Senator Klobuchar. And so I am quite concerned about this 
just because we want these people to stay and, you know, make 
the next Post-it Note and pacemaker in Minnesota. And so that 
is why, as you know, Senator Hatch and I introduced the I-
Squared bill, half Democrat, half Republican authors. It is 
part of comprehensive immigration reform. That is how I see it. 
But it is also important, we believe, to get the writing on the 
wall and get that bill out there, because it really does--right 
now we have--a third of the visas that we had back in 2001 for 
H-1Bs. We have severe limits on per country green cards, which 
Senator Lee pointed out. And I was thinking, as I listened to 
your testimony where you said a third of immigrants at our 
universities have to go back when they do not want to, imagine 
if that happened to our sports teams. Just look at the roster 
of your favorite sports team, NFL, NHL, Major League Baseball. 
Look at what the immigrants are on that team and take a third 
of them off, because that is what we are doing with our 
universities.
    Mr. Case. It is worse than we think because when they go 
back, they go to other countries and start companies there. The 
entrepreneurial ecosystem is developed there, and then they 
become more robust competitors to the United States. So once 
the genie gets out of the bottle, it is hard to put it back in.
    Senator Klobuchar. Right. And to just last bring it back--
no more questions, Mr. Chairman--to Mr. Vargas, I liked your 
words, Mr. Case, how you see this as an opportunity, that this 
is not a problem, that Mr. Vargas is not a problem, but he is 
creating opportunities for himself and for others in our 
country.
    Thank you.
    Senator Coons. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman, and thank you to 
the panel.
    Before I begin my questions, starting with Mr. Vargas, I 
would like to extend a special aloha to Steve Case, who has 
spent a lot of time in Hawaii. You have family there, and you 
are very much a part of our community in the State. So aloha to 
you.
    Mr. Vargas, I was particularly touched and taken by your 
testimony because you are living the broken immigration system. 
And I want to welcome your family and friends who are here to 
support you.
    I just happened to read your op-ed piece in today's New 
York Times where you say that 1.6 million people have been 
deported by this administration and maybe 200,000 of them left 
their American-born children who, if they do not have family 
who can help take care of them, they end up being in foster 
care. This is no way for us to fix this broken system.
    From your experience--and you also talked about how worried 
your grandmother continues to be because you came out, and were 
in not for some changes in priorities of enforcement, you could 
be arrested right here and now, deported. So I think you really 
bring to the fore the kinds of changes we need to make that 
really reflects our values.
    Can you just talk a little bit more from not just your 
experience but the experience of the people that you obviously 
work with in terms of how important unifying families is? And 
that includes LGBT families.
    Mr. Vargas. Thank you. Families are at the heart of the 
American character. I am fortunate that I have a really, you 
know, strong Filipino family, Filipino American family. You 
know they are from Hawaii.
    Senator Hirono. Yes.
    Mr. Vargas. You know, my grandmother, who is sitting right 
there, my Lola, is an American citizen, hard-working, taxpaying 
American citizen. I remember when I got hired at the Washington 
Post, and I was here for five years. Being in D.C. for five 
years and going to the White House and going to Capitol Hill to 
cover a hearing was--I would not even call her because when I 
called, the first thing she would say is, ``Are you sure you 
are going to be OK? Are you sure you are going to be OK?'' 
Thankfully, she is still healthy now. She just turned 75 last 
September, because I promised her that once we fixed this--and 
we are going to fix it--we will be able to travel together. I 
have not seen my mother for 20 years this August. And I can 
only imagine how many other families are out there who are 
experiencing the exact same thing.
    I have met a lot of same-sex binational couples as I have 
traveled. I have been to about 25 States, maybe 100 meetings 
and events, even a couple of Tea Party meetings, and it has 
been really interesting, you know, when you see same-sex 
couples say, ``I cannot marry and petition my partner of five, 
10, 12 years, because we have DOMA''--the Defense of Marriage 
Act that does not allow--the Federal Government does not 
acknowledge same-sex marriage even if it happens in New York, 
for example, or Massachusetts.
    So you see just not how--you really see how broken it is 
from the perspective of individual lives and their connections 
to their own communities. And that is why it is so important, 
that is why it was important for me not just to bring my 
Filipino American family but to bring the family that I found 
at my high school. You know, I do not know what I would have 
done if Pat Highland or Jim Strand and Rich Fischer--they did 
not see me as an illegal alien sitting the classroom. They saw 
me as a kid who could maybe, you know, work for the Washington 
Post, maybe write for the New Yorker. They saw opportunity. 
They did not see a problem. And I think it is important, as we 
talk about human beings, to keep the conversation that way.
    Senator Hirono. Thank you.
    I think that it is very clear that I am very focused on one 
of the principles of immigration reform as family 
reunification, and, Mr. Case, I agree with you that we ought to 
provide opportunities for people who come here and get their 
STEM education here, for them to remain so that they can--so 
that we can have the benefit of their entrepreneurial skills.
    There are a lot of people--I know you know--who came here 
as children, immigrated here, for example, Sergei Brin of 
Google, he fled the Soviet Union at age six, and Jerry Yang of 
Yahoo! who left Taiwan with his mother at age 10. So I hope 
that you agree with me that we do need to balance the visa/
green card issue with encouraging immigration, family 
immigration to this country so that people who dream the 
American dream can also provide us with their talents and 
entrepreneurism.
    Mr. Case. I do agree, and as I mentioned in my testimony, I 
have been talking and many people have been talking and 
advocating for high-skilled immigration reform for a decade, 
and for most of that decade, we were frustrated nothing was 
happening and concluded that it would be difficult to get 
anything done, but if anything got done, it would be narrower 
high-skilled reform package. I think there is now a recognition 
there is a moment, there is now bipartisan support building, 
and the best, fastest path to get high-skilled immigration done 
is to support comprehensive immigration reform.
    So I think you will see a broader support from the tech 
community not just on the specific issues, but this broader 
solution.
    Senator Hirono. Thank you. I believe my time is up. Thank 
you, Mr. Chairman.
    Senator Coons. Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman, and thank you 
all for being here. My special thanks to Mr. Vargas. As you may 
know, I have been a long-time advocate of the DREAM Act, both 
as State Attorney General and now as a United States Senator. 
In fact, I try to go to the floor every week when I can to, in 
effect, highlight a story like yours of a DREAMer contributing 
and giving back to this country in very, very material and 
impressive ways, and you have done so, and by today's 
appearance you have given us a new DREAMer to call a model for 
why we should pass this act and expedite the earned citizenship 
status for young people brought to this country or coming to 
this country at a young age and then being educated, working, 
contributing, serving in our military. Thank you for being here 
today.
    Mr. Crane, I thought, when you opened with the story of the 
unlicensed driver causing this tragic crash and injury/death to 
the individual you described, that you were going to argue for 
providing driver's licenses and requiring insurance for 
undocumented immigrants, such as some States have done. What do 
you think about that proposal?
    Mr. Crane. Well, I think that actually both of those cases 
that I cited, both of those individuals had--one had an 
opportunity to have a license. He was on TPS. So he could have 
had a license. He failed the exam three times. The other one, I 
think his license had been suspended three times. So in both of 
those cases, there would have been no benefit to having a 
license as both of them had already had licenses.
    I do not know if that answers your question.
    Senator Blumenthal. What about insurance?
    Mr. Crane. Did they have insurance?
    Senator Blumenthal. Yes.
    Mr. Crane. That I do not know, sir. My understanding of 
both cases is that they do not, but I cannot say for sure.
    Senator Blumenthal. And what about increasing the penalties 
for drivers who cause such accidents without insurance, such as 
some States have done? Which is a problem common not only to 
undocumented immigrants but to many, many other citizens.
    Mr. Crane. I am a law enforcement officer. Absolutely I 
would support stronger penalties for individuals that do not 
have the proper licensing, et cetera.
    Senator Blumenthal. Let me ask you, Mr. Case--and I really 
want to thank you for your very persuasive and important 
testimony today on the H-1B visa reform, and I have joined as a 
leading cosponsor, with thanks to Senator Klobuchar and Senator 
Hatch, for their effort in championing this reform.
    One concern that has been expressed that also troubles me 
to an extent is the fact that individuals coming here with such 
visas are, in effect, tied to their employer with long backlogs 
before they can receive a green card. Wouldn't this kind of 
reform also require or entail either streamlining that process 
or according the H-1B visa recipient with greater freedom to 
move among employers?
    Mr. Case. Yes, I think that would be a good idea. There are 
obviously many facets to this, and having more H-1Bs, raising 
or having no cap for some of these kind of advanced degrees 
that people have so we can keep more of that talent, more 
innovation here is key. But I do think what some have called 
the portability issue of H-1B visas would be helpful. There is 
no question that getting people here is part of the battle. 
Getting them to stay here is the next part of the battle. I 
would hate to train them and have them be working at IBM or 
Microsoft or some company, then after three years or six years 
feel like they have to go back and take those skills somewhere 
else or feel they cannot really leave that company because to 
do a startup, even if they would like to, because they would 
lose their status, we really should take this in a broader 
context of winning the battle for talent. How do we attract 
some of the--keep the ones we have and attract others who can 
really power our economy for the next 200 years and pioneer the 
next industries? And there are many specifics that obviously 
you folks need to deal with, but I favor a broader solution, a 
little bit of ``all of the above'' solution around high-skilled 
immigration. The I-Squared is very helpful, the Startup Visa 
Act very helpful. I am pleased that Senator Coons with 
bipartisan support is reintroducing the Startup Act. It also, I 
think, is very helpful.
    So I would encourage this Committee to look at all these 
different bills. There is a lot of commonality to them, but we 
do need a robust high-skilled immigration component to any 
comprehensive reform.
    Senator Blumenthal. And I assume that you would also 
support a stronger system in the United States of STEM 
education so that our own citizens can be afforded greater 
opportunity to take advantage of these jobs that right now are 
unfilled because we are not providing our young people with the 
kind of skills that they need to fill them. The President 
highlighted this issue last night in the State of the Union, 
and I strongly support that kind of measure, which, again, 
Senator Klobuchar and others who are behind this bill have said 
is important.
    Mr. Case. I totally agree. I even believe it has been 
framed as sort of this false choice, either why don't you 
invest in STEM education in the United States and not attract 
people from out of the country. Of course, you have to do both, 
and we should be as robust as we can, but recognize that takes 
some time, 10 or more years, before we will get the benefit of 
any of those investments in our own education system.
    Meanwhile, we are starting to lose the battle of talent. We 
are running the risk of losing our status as the most 
entrepreneurial nation. So we need to move very aggressively 
and very urgently to make sure that the best and brightest are 
coming here and staying here.
    Senator Blumenthal. Thank you. My time has expired. Thank 
you, Mr. Chairman.
    Senator Klobuchar. Mr. Chairman.
    Senator Coons. Thank you, Senator Blumenthal.
    Senator Klobuchar. Just one point to follow up on that, not 
a question. The bill actually contains an increase in the visa 
fee. As Mr. Case and Senator Blumenthal know, that will amount 
to a minimum of $3 billion in 10 years that will go directly to 
STEM education and training in our country. And perhaps it will 
be as much as $5 billion.
    And so that was something that we got business support for, 
and it is a really important element of this bill, because we 
have to do both of these things simultaneously.
    Senator Blumenthal. I was going to make that point, Mr. 
Chairman, but my time had expired.
    [Laughter.]
    Senator Klobuchar. I get the point, Mr. Chairman.
    Senator Coons. You have battling cosponsors of an important 
piece of legislation that contributes significantly both to 
STEM education for U.S. nationals and creating a new pathway. 
Thank you, Senator Klobuchar, for your leadership on the bill 
and for that contribution.
    Ms. Murguia, if I might, a previous Senator described 
meetings in which only special interests were present and I 
think fairly directly implied that NCLR is a special interest 
group that does not speak for ordinary Americans. Could you 
just tell us something about who NCLR represents and its role 
in conversations about the path forward for America?
    Ms. Murguia. Thank you, Senator. I appreciate the 
opportunity to respond to that, and I thank Jose Antonio for 
understanding, too, that we are not a special interest group. 
The fact is that the National Council of La Raza, NCLR, has 
been around for 45 years, and we represent a network of 
affiliates that serve millions of Hispanic families. And what 
we try to do is make sure that we are providing opportunities 
for our community to succeed, and we have various programs that 
we provide through this network of affiliates, community-based, 
nonprofit organizations. We run 115 charter schools. We have 
health programs and health clinics that are providing services.
    We run homeownership counseling services that have put over 
65,000 families in their first-time homes, and we have work 
force development programs that have helped fill the gaps in 
skills so that our community can fill the jobs that are out 
there that need to be filled.
    And, yes, we do represent a voice for the community when it 
comes to civil rights and when we have been involved in 
immigration policy.
    But the truth is that we have been active and involved in 
representing the Latino community for almost 50 years now, and 
it is something that we believe is important particularly now 
on this issue when we have a unique moment in time to finally 
put a solution out there for immigration reform.
    And I commend Jose Antonio and the DREAMers for the courage 
that they have demonstrated. It really is an example for all of 
us to put that personal narrative out there for us to 
understand that not only do we need to address their situation, 
but that they understand that their parents and other family 
members need to have their situations addressed as well. And 
that is why we need comprehensive immigration reform.
    So when I am in a meeting with the President, I am 
representing not just a special interest but 50 million Latinos 
who are out there contributing mightily, serving in our 
military, and making this country better every day.
    Senator Coons. Thank you. I am well familiar with the range 
and scope of your good work. I just thought it was important to 
have that included in the record.
    As we move forward in this conversation, to the point you 
made, we are grateful to Mr. Vargas for sharing with us the 
details of his personal familial experience and the significant 
contributions his voice, his writing, and his work have made to 
our country and to this debate. But if you might, how in your 
view is a mixed family, one with citizenship and undocumented 
status, affected? How does this illegal limbo impact their 
interaction, their opportunity, their engagement with law 
enforcement, their likelihood of attending college, or being 
able to fully participate in America? Then, Mr. Vargas, I will 
ask you to follow up.
    Ms. Murguia. Well, of course. Right now we have a situation 
where these young people, individuals, have been brought into 
this country by their parents, have grown up pledging 
allegiance to this country in their schools and classrooms, and 
all they want to do is have a chance to go on and to have 
higher education. And a lot of folks have found that cost 
prohibitive because of their status. But not only that, they 
are living in the shadows still today, and they understand that 
their situation is one that is represented by all their 
families.
    But we are missing out as a country in not benefiting from 
their potential further contributions. And as Steve Case has 
made the point, if we would be able to make sure that we are 
obviously looking at the harvest of folks that we have here 
that we are not taking advantage of, we need to strike a right 
balance with folks who are coming in, who are able to meet 
other immediate needs for this country in terms of our work 
force. But we have many individuals now that, if we would put 
the right law in place, allow them to be able to come out of 
the shadows, but also make the right investments, we can have 
those kinds of contributions to our economy which we know will 
be plentiful.
    Senator Coons. Thank you. And if I might, Mr. Case, because 
my time is about to be up and I want to be respectful of other 
Senators' time, you have been an effective and engaged 
advocate, particularly on the issue of high-skilled 
immigration, but also consistently around the special 
contribution of immigrants in the United States throughout its 
whole history--creativity, entrepreneurship, vision. And you 
have tried to bring focus in this Congress to the issue of 
global competition, how things have changed in the last 10 or 
20 years, that today we cannot afford to have the best and 
brightest in the world come here, be trained in some of the 
most advanced skills and techniques, and then go back to their 
home countries where their governments are waiting with 
resources and support to help them then begin companies that 
will compete against us.
    Could you talk just a little bit about how that dynamic, as 
you described it, the entrepreneurial ecosystem, works to our 
disadvantage if we do not fix this part of our broken 
immigration system? And then, in closing, if you would just 
comment on why it is important that it be comprehensive, that 
we not do sort of rifle-shot issues to try and address one 
piece, but that we do this broadly and comprehensively.
    Mr. Case. Well, I think people in this country, including 
in this town, are a little complacent about the role 
entrepreneurship has played in building the Nation and the role 
it needs to play to continue to drive a powerful economy. We 
kind of take it for granted that entrepreneurship is alive and 
well, and we like to talk about Silicon Valley, and we are so 
proud of Silicon Valley. And there are a lot of great stories. 
But as you point out, in the last 10 years we have seen a 
dramatic shift, as other countries around the world have 
recognized, that the secret sauce that has powered the American 
economy and the American story, which is why we are the leading 
nation in the world, you know, the leader of the free world, is 
the work of entrepreneurs and innovators. So they are moving 
very aggressively on talent policy, trying to make it easy for 
people to come and stay because they want to attract the best 
talent. Investment incentives, you know, little or no capital 
gains, for example, in many countries, building up more 
research to make sure the next Internets are created in other 
nations, a whole slew of policies that are really focused on 
trying to shift the center of gravity from entrepreneurship 
being kind of the secret sauce of America and trying to 
replicate that.
    So we do need to take it quite seriously. I would hate, as 
I mentioned in my remarks, for us 25 years from now to be 
bemoaning the loss of entrepreneurship like we now bemoan the 
loss of manufacturing. We are still in the lead, but that lead 
is slipping, and we need to take action.
    Your final question on comprehensive immigration reform, 
part of it is the pragmatic recognition that the best path to 
get high-skilled immigration reform done is to include a 
broader set of initiatives that have broader support. But also 
I think it is the right thing to do morally and the right thing 
to do from our economy's standpoint. It is not just about the 
high-skilled workers in those particular companies. It is what 
happens more broadly in those communities and having a path to 
citizenship and getting people off this status of being kind of 
in the gray zone and contributing fully as members of the 
economy I think is very important, and it really is the story 
of America as well.
    Senator Coons. Well, thank you, Mr. Case. In my view, 
allowing 11, 12 million people in this country to come out of 
the shadows to fully engage in our economy, to fully engage in 
our community and our society is one of the best contributions 
we could make to economic growth.
    Senator Klobuchar.
    Senator Klobuchar. Yes, I will just ask one more question 
of Mr. Case. Could you explain--I think there is some confusion 
sometimes about why we need both green card reform, where we 
have these students who we literally want to staple a green 
card to their diploma so they can stay and take time to look 
for a job, and then we also have people like a doctor in 
Minnesota from India who for 16 years bounced around on various 
visas and it was not until when he became head of a high-tech 
company he was able to finally get a green card, even though he 
had been trained at the Mayo Clinic, had a diabetes degree, he 
had worked with low-income families and provided medical 
services to them, why this green card option is important but 
also why the H-1B is important and how we are literally 
reaching the cap as the economy is improving in some cases, 
back a while ago, the same day.
    Mr. Case. I think it is part of this broader issue about 
winning the global battle for talent, and although the issue of 
11 million undocumented people is a big issue, we are talking 
here, whether it be the Startup Act or the I-Squared, 
relatively small numbers that have relatively large impact, 
50,000, 100,000, 150,000, whether it be we are talking about H-
1B or a STEM visa or an entrepreneur visa.
    So in the grand scheme of things, it is a relatively small 
part of the problem, but, in fact, it is the bigger opportunity 
in terms of job creation. And it is important to recognize 
there are lots of different ways to attract talent. Some of it 
is getting students here and trying to get them to stay here. 
Some of it is recruiting people to larger companies and then 
trying to get them to stay in that company or stay in our 
country starting other companies.
    It is all about winning the battle talent, and I think we 
sometimes focus too much on the specifics and miss the broader 
story of how do we make sure we win that battle for talent.
    So I support all these different initiatives and try to 
make it as robust as possible because there are a lot of 
different ways people are going to be thinking about coming and 
staying in this country and contributing in this country, which 
is not just about, as I said, immigration. It is about our 
economy. If we want to get our two-percent growth to a higher 
level, we have got to focus more on innovation and 
entrepreneurship, given the statistics that half of the 
technology companies are started up by immigrants and 40 
percent of the Fortune 500 companies are first- or second-
generation immigrants, including non-technology companies. If 
we do not get this right, our lead in entrepreneurship is going 
to slip away, and we cannot allow that to happen.
    Senator Klobuchar. Thank you.
    Senator Coons. Thank you.
    Senator Hirono, do you have any further questions? Senator 
Blumenthal, any further questions.
    Senator Blumenthal. Yes, just a couple of questions.
    Ms. Vaughan, I want to make sure that I understand your 
position, which emphasizes really the importance of 
enforcement. As a law enforcer, I am certainly completely in 
agreement, but I think the President and the bipartisan group 
working here in the Senate also contemplate stronger 
enforcement. In fact, the plan under consideration here, the 
bipartisan plan, would actually condition earned citizenship on 
some certification that there is stronger enforcement at the 
borders. But regardless of whether that particular device is 
adopted or not, enforcement at the borders against illegal 
immigration, enforcement within our borders against employers 
who hire undocumented immigrants certainly is the priority 
goal, and in some ways on the President's plan even above the 
pathway to earned citizenship.
    And so even if they were to adopt the ABC's of stronger 
enforcement that you suggest in your testimony should be made a 
practice, I gather you would still oppose the path to earned 
citizenship for various reasons, not the least of which is your 
concern about unskilled workers filling jobs that otherwise 
would be filled by American citizens. And I wonder what you 
would do about the 11 million undocumented people who are 
within our borders right now.
    Ms. Vaughan. Well, I think it is important for the public 
to be able to support the proposals that Congress is going to 
be debating, and I think for that to happen, the public has 
expressed, at least through the polling data I have seen, that 
they want to see a sustained commitment to enforcement before 
we make a decision on what to do with----
    Senator Blumenthal. So your objection is one of timing, 
then?
    Ms. Vaughan. Well, that is part of it.
    Senator Blumenthal. In other words, if the polling data 
show that 90 percent--or is your argument about the politics of 
this problem, or is it about the substance? If the President 
could use his bully pulpit to convince the public, beginning 
with the State of the Union last night, that a pathway to 
earned citizenship is really necessary, you would go along with 
it then?
    Ms. Vaughan. The pathway itself is not necessarily the 
issue. I think the politics are a problem because of the fact 
that there has not been enough substance in the way of 
enforcement to convince people that we are not going to be in 
this same situation 10, 20 years down the road.
    We also have to--and I do not know of anybody who thinks 
that it is either feasible or a good idea to try to remove 11 
million people who are here illegally. But what we have seen--
--
    Senator Blumenthal. You would leave them in their current 
status.
    Ms. Vaughan. Well, some of them would make the choice to go 
back home. That is what we have seen happen when robust 
enforcement has been implemented, for example, at the State 
level. But we can have a conversation about a path to 
citizenship to those that are deemed to be, you know, people 
that we can accommodate. That is also going to have to take 
into account what the effect is going to be on Americans who 
are looking for jobs, the same kinds of jobs, and also whether 
or not we should adjust future immigration levels to compensate 
for the fact that we are going to be issuing a lot more green 
cards as a result of any amnesty that is contemplated.
    So, I mean, that is why I think trying to bite all of this 
off in one massive bill is going to be very, very difficult to 
accomplish. When I look back at the immigration legislation 
that has been passed since 1986, all of it was much narrower in 
scope. We have passed a lot of--I should say Congress has 
passed a lot of immigration bills in the last 20 years. All of 
them were much narrower in scope and focused on things that 
were attainable and around which there was broad consensus. And 
part of that is because of the IRCA experience where the 
amnesty came first and the promises of enforcement were never 
fulfilled.
    Senator Blumenthal. First of all, I think to characterize 
it as amnesty would be rejected by many of us who support it, 
the idea of earning citizenship by paying back taxes, paying a 
penalty, learning English, going to the back of the line, and 
in the case of the DREAMers, literally earning it by serving 
this Nation in its United States military, I think is 
inaccurate. But I really do believe that we are at a moment, a 
historic moment, when a big deal_and immigration reform is a 
big deal--would be accepted by the public, and I think would be 
inspiring to the public because we are Nation of immigrants. We 
all know it. We all feel it in our gut. We all have pictures on 
our walls of people who came here because this Nation has been 
a beacon for them, not just the skilled who come here with H-1B 
visas, but also, you know, the folks in Connecticut who built 
our railroads, whose children now are running major 
corporations.
    I just differ with you strongly on the politics of this 
issue, and I think your argument really is grounded in a very 
pessimistic view of what the American public will support. So I 
thank you for your very, very constructive and informative 
testimony, and I hope that we are in a different time in terms 
of where public opinion is.
    Thank you.
    Senator Coons. Thank you, Senator Blumenthal.
    I believe we have come to the end of our questions. I am 
going to simply thank the panel. I am going to ask unanimous 
consent to place in the record statements from a variety of law 
enforcement, immigration, and human rights groups and thank 
them for their submissions and providing their testimony on 
this important topic.
    [The information appears as a submission for the record.]
    Senator Coons. I do want to say, in closing, Mr. Vargas 
asked at one point rather movingly, ``What is it that you want 
to do with us?'' And at least speaking for myself, what I would 
like to see us do, as Senator Blumenthal put so well, is to 
embrace the enormous opportunity presented for us to deal with 
immigrants in America not as a problem but as a great path 
forward together to build a stronger, more vibrant, more 
entrepreneurial America, to allow millions to move out of the 
shadows and to have real access to the American dream, to make 
our country safer, to make it possible for folks to openly 
contribute their skills and talents, as you have, and to heal 
this longstanding impasse over this most fundamental values 
issue.
    So to the panel, thank you very much for your testimony 
today. The hearing record will remain open for one week if 
other Senators who were not able to attend wish to submit 
additional questions, and the hearing is hereby adjourned.
    [Whereupon, at 1:22 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]


                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC] [TIFF OMITTED] T5745.001

 Prepared Statements of Witnesses, Committee Chairman, Ranking Member, 
                         and Committee Members

[GRAPHIC] [TIFF OMITTED] T5745.002

[GRAPHIC] [TIFF OMITTED] T5745.003

[GRAPHIC] [TIFF OMITTED] T5745.004

[GRAPHIC] [TIFF OMITTED] T5745.005

[GRAPHIC] [TIFF OMITTED] T5745.006

[GRAPHIC] [TIFF OMITTED] T5745.007

[GRAPHIC] [TIFF OMITTED] T5745.008

[GRAPHIC] [TIFF OMITTED] T5745.009

[GRAPHIC] [TIFF OMITTED] T5745.010

[GRAPHIC] [TIFF OMITTED] T5745.011

[GRAPHIC] [TIFF OMITTED] T5745.012

[GRAPHIC] [TIFF OMITTED] T5745.013

[GRAPHIC] [TIFF OMITTED] T5745.014

[GRAPHIC] [TIFF OMITTED] T5745.015

[GRAPHIC] [TIFF OMITTED] T5745.016

[GRAPHIC] [TIFF OMITTED] T5745.017

[GRAPHIC] [TIFF OMITTED] T5745.018

[GRAPHIC] [TIFF OMITTED] T5745.019

[GRAPHIC] [TIFF OMITTED] T5745.020

[GRAPHIC] [TIFF OMITTED] T5745.021

[GRAPHIC] [TIFF OMITTED] T5745.022

[GRAPHIC] [TIFF OMITTED] T5745.023

[GRAPHIC] [TIFF OMITTED] T5745.024

[GRAPHIC] [TIFF OMITTED] T5745.025

[GRAPHIC] [TIFF OMITTED] T5745.026

[GRAPHIC] [TIFF OMITTED] T5745.027

[GRAPHIC] [TIFF OMITTED] T5745.028

[GRAPHIC] [TIFF OMITTED] T5745.029

[GRAPHIC] [TIFF OMITTED] T5745.030

[GRAPHIC] [TIFF OMITTED] T5745.031

[GRAPHIC] [TIFF OMITTED] T5745.032

[GRAPHIC] [TIFF OMITTED] T5745.033

[GRAPHIC] [TIFF OMITTED] T5745.034

[GRAPHIC] [TIFF OMITTED] T5745.035

[GRAPHIC] [TIFF OMITTED] T5745.036

[GRAPHIC] [TIFF OMITTED] T5745.037

[GRAPHIC] [TIFF OMITTED] T5745.038

[GRAPHIC] [TIFF OMITTED] T5745.039

[GRAPHIC] [TIFF OMITTED] T5745.040

[GRAPHIC] [TIFF OMITTED] T5745.041

[GRAPHIC] [TIFF OMITTED] T5745.042

[GRAPHIC] [TIFF OMITTED] T5745.043

[GRAPHIC] [TIFF OMITTED] T5745.044

[GRAPHIC] [TIFF OMITTED] T5745.045

[GRAPHIC] [TIFF OMITTED] T5745.046

[GRAPHIC] [TIFF OMITTED] T5745.047

[GRAPHIC] [TIFF OMITTED] T5745.048

[GRAPHIC] [TIFF OMITTED] T5745.049

[GRAPHIC] [TIFF OMITTED] T5745.050

[GRAPHIC] [TIFF OMITTED] T5745.051

[GRAPHIC] [TIFF OMITTED] T5745.052

[GRAPHIC] [TIFF OMITTED] T5745.053

[GRAPHIC] [TIFF OMITTED] T5745.054

[GRAPHIC] [TIFF OMITTED] T5745.055

[GRAPHIC] [TIFF OMITTED] T5745.056

[GRAPHIC] [TIFF OMITTED] T5745.057

[GRAPHIC] [TIFF OMITTED] T5745.058

[GRAPHIC] [TIFF OMITTED] T5745.059

[GRAPHIC] [TIFF OMITTED] T5745.060

[GRAPHIC] [TIFF OMITTED] T5745.061

[GRAPHIC] [TIFF OMITTED] T5745.062

[GRAPHIC] [TIFF OMITTED] T5745.063

[GRAPHIC] [TIFF OMITTED] T5745.064

                         Questions and Answers

[GRAPHIC] [TIFF OMITTED] T5745.065

[GRAPHIC] [TIFF OMITTED] T5745.066

[GRAPHIC] [TIFF OMITTED] T5745.067

[GRAPHIC] [TIFF OMITTED] T5745.068

[GRAPHIC] [TIFF OMITTED] T5745.069

[GRAPHIC] [TIFF OMITTED] T5745.070

[GRAPHIC] [TIFF OMITTED] T5745.071

[GRAPHIC] [TIFF OMITTED] T5745.072

[GRAPHIC] [TIFF OMITTED] T5745.073

[GRAPHIC] [TIFF OMITTED] T5745.074

[GRAPHIC] [TIFF OMITTED] T5745.075

[GRAPHIC] [TIFF OMITTED] T5745.076

[GRAPHIC] [TIFF OMITTED] T5745.077

[GRAPHIC] [TIFF OMITTED] T5745.078

[GRAPHIC] [TIFF OMITTED] T5745.079

[GRAPHIC] [TIFF OMITTED] T5745.080

[GRAPHIC] [TIFF OMITTED] T5745.081

[GRAPHIC] [TIFF OMITTED] T5745.082

[GRAPHIC] [TIFF OMITTED] T5745.083

[GRAPHIC] [TIFF OMITTED] T5745.084

[GRAPHIC] [TIFF OMITTED] T5745.085

[GRAPHIC] [TIFF OMITTED] T5745.086

[GRAPHIC] [TIFF OMITTED] T5745.087

[GRAPHIC] [TIFF OMITTED] T5745.088

[GRAPHIC] [TIFF OMITTED] T5745.089

[GRAPHIC] [TIFF OMITTED] T5745.090

[GRAPHIC] [TIFF OMITTED] T5745.091

[GRAPHIC] [TIFF OMITTED] T5745.092

[GRAPHIC] [TIFF OMITTED] T5745.093

[GRAPHIC] [TIFF OMITTED] T5745.094

[GRAPHIC] [TIFF OMITTED] T5745.095

[GRAPHIC] [TIFF OMITTED] T5745.096

[GRAPHIC] [TIFF OMITTED] T5745.097

[GRAPHIC] [TIFF OMITTED] T5745.098

[GRAPHIC] [TIFF OMITTED] T5745.099

[GRAPHIC] [TIFF OMITTED] T5745.100

[GRAPHIC] [TIFF OMITTED] T5745.101

[GRAPHIC] [TIFF OMITTED] T5745.102

[GRAPHIC] [TIFF OMITTED] T5745.103

[GRAPHIC] [TIFF OMITTED] T5745.104

[GRAPHIC] [TIFF OMITTED] T5745.105

[GRAPHIC] [TIFF OMITTED] T5745.106

[GRAPHIC] [TIFF OMITTED] T5745.107

[GRAPHIC] [TIFF OMITTED] T5745.108

[GRAPHIC] [TIFF OMITTED] T5745.109

[GRAPHIC] [TIFF OMITTED] T5745.110

[GRAPHIC] [TIFF OMITTED] T5745.111

[GRAPHIC] [TIFF OMITTED] T5745.112

[GRAPHIC] [TIFF OMITTED] T5745.113

[GRAPHIC] [TIFF OMITTED] T5745.114

[GRAPHIC] [TIFF OMITTED] T5745.115

[GRAPHIC] [TIFF OMITTED] T5745.116

[GRAPHIC] [TIFF OMITTED] T5745.117

[GRAPHIC] [TIFF OMITTED] T5745.118

[GRAPHIC] [TIFF OMITTED] T5745.119

[GRAPHIC] [TIFF OMITTED] T5745.120

[GRAPHIC] [TIFF OMITTED] T5745.121

[GRAPHIC] [TIFF OMITTED] T5745.122

[GRAPHIC] [TIFF OMITTED] T5745.123

[GRAPHIC] [TIFF OMITTED] T5745.124

                Miscellaneous Submissions for the Record

[GRAPHIC] [TIFF OMITTED] T5745.125

[GRAPHIC] [TIFF OMITTED] T5745.126

[GRAPHIC] [TIFF OMITTED] T5745.127

[GRAPHIC] [TIFF OMITTED] T5745.128

[GRAPHIC] [TIFF OMITTED] T5745.129

[GRAPHIC] [TIFF OMITTED] T5745.130

[GRAPHIC] [TIFF OMITTED] T5745.131

[GRAPHIC] [TIFF OMITTED] T5745.132

[GRAPHIC] [TIFF OMITTED] T5745.133

[GRAPHIC] [TIFF OMITTED] T5745.134

[GRAPHIC] [TIFF OMITTED] T5745.135

[GRAPHIC] [TIFF OMITTED] T5745.136

[GRAPHIC] [TIFF OMITTED] T5745.137

[GRAPHIC] [TIFF OMITTED] T5745.138

[GRAPHIC] [TIFF OMITTED] T5745.139

[GRAPHIC] [TIFF OMITTED] T5745.140

[GRAPHIC] [TIFF OMITTED] T5745.141

[GRAPHIC] [TIFF OMITTED] T5745.142

[GRAPHIC] [TIFF OMITTED] T5745.143

[GRAPHIC] [TIFF OMITTED] T5745.144

[GRAPHIC] [TIFF OMITTED] T5745.145

[GRAPHIC] [TIFF OMITTED] T5745.146

[GRAPHIC] [TIFF OMITTED] T5745.147

[GRAPHIC] [TIFF OMITTED] T5745.148

[GRAPHIC] [TIFF OMITTED] T5745.149

[GRAPHIC] [TIFF OMITTED] T5745.150

[GRAPHIC] [TIFF OMITTED] T5745.151

[GRAPHIC] [TIFF OMITTED] T5745.152

[GRAPHIC] [TIFF OMITTED] T5745.153

[GRAPHIC] [TIFF OMITTED] T5745.154

[GRAPHIC] [TIFF OMITTED] T5745.155

[GRAPHIC] [TIFF OMITTED] T5745.156

[GRAPHIC] [TIFF OMITTED] T5745.157

[GRAPHIC] [TIFF OMITTED] T5745.158

[GRAPHIC] [TIFF OMITTED] T5745.159

[GRAPHIC] [TIFF OMITTED] T5745.160

[GRAPHIC] [TIFF OMITTED] T5745.161

[GRAPHIC] [TIFF OMITTED] T5745.162

[GRAPHIC] [TIFF OMITTED] T5745.163

[GRAPHIC] [TIFF OMITTED] T5745.164

[GRAPHIC] [TIFF OMITTED] T5745.165

[GRAPHIC] [TIFF OMITTED] T5745.166

[GRAPHIC] [TIFF OMITTED] T5745.167

[GRAPHIC] [TIFF OMITTED] T5745.168

[GRAPHIC] [TIFF OMITTED] T5745.169

[GRAPHIC] [TIFF OMITTED] T5745.170

[GRAPHIC] [TIFF OMITTED] T5745.171

[GRAPHIC] [TIFF OMITTED] T5745.172

[GRAPHIC] [TIFF OMITTED] T5745.173

[GRAPHIC] [TIFF OMITTED] T5745.174

[GRAPHIC] [TIFF OMITTED] T5745.175

[GRAPHIC] [TIFF OMITTED] T5745.176

[GRAPHIC] [TIFF OMITTED] T5745.177

[GRAPHIC] [TIFF OMITTED] T5745.178

[GRAPHIC] [TIFF OMITTED] T5745.179

[GRAPHIC] [TIFF OMITTED] T5745.180

[GRAPHIC] [TIFF OMITTED] T5745.181

[GRAPHIC] [TIFF OMITTED] T5745.182

[GRAPHIC] [TIFF OMITTED] T5745.183

[GRAPHIC] [TIFF OMITTED] T5745.184

[GRAPHIC] [TIFF OMITTED] T5745.185

[GRAPHIC] [TIFF OMITTED] T5745.186

[GRAPHIC] [TIFF OMITTED] T5745.187

[GRAPHIC] [TIFF OMITTED] T5745.188

[GRAPHIC] [TIFF OMITTED] T5745.189

[GRAPHIC] [TIFF OMITTED] T5745.190

[GRAPHIC] [TIFF OMITTED] T5745.191

[GRAPHIC] [TIFF OMITTED] T5745.192

[GRAPHIC] [TIFF OMITTED] T5745.193

[GRAPHIC] [TIFF OMITTED] T5745.194

[GRAPHIC] [TIFF OMITTED] T5745.195

[GRAPHIC] [TIFF OMITTED] T5745.196

[GRAPHIC] [TIFF OMITTED] T5745.197

[GRAPHIC] [TIFF OMITTED] T5745.198

[GRAPHIC] [TIFF OMITTED] T5745.199

[GRAPHIC] [TIFF OMITTED] T5745.200

[GRAPHIC] [TIFF OMITTED] T5745.201

[GRAPHIC] [TIFF OMITTED] T5745.202

[GRAPHIC] [TIFF OMITTED] T5745.203

[GRAPHIC] [TIFF OMITTED] T5745.204

[GRAPHIC] [TIFF OMITTED] T5745.205

[GRAPHIC] [TIFF OMITTED] T5745.206

[GRAPHIC] [TIFF OMITTED] T5745.207

[GRAPHIC] [TIFF OMITTED] T5745.208

[GRAPHIC] [TIFF OMITTED] T5745.209

[GRAPHIC] [TIFF OMITTED] T5745.210

[GRAPHIC] [TIFF OMITTED] T5745.211

[GRAPHIC] [TIFF OMITTED] T5745.212

[GRAPHIC] [TIFF OMITTED] T5745.213

[GRAPHIC] [TIFF OMITTED] T5745.214

[GRAPHIC] [TIFF OMITTED] T5745.215

[GRAPHIC] [TIFF OMITTED] T5745.216

[GRAPHIC] [TIFF OMITTED] T5745.217

[GRAPHIC] [TIFF OMITTED] T5745.218

[GRAPHIC] [TIFF OMITTED] T5745.219

[GRAPHIC] [TIFF OMITTED] T5745.220

[GRAPHIC] [TIFF OMITTED] T5745.221

[GRAPHIC] [TIFF OMITTED] T5745.222

[GRAPHIC] [TIFF OMITTED] T5745.223

[GRAPHIC] [TIFF OMITTED] T5745.224

[GRAPHIC] [TIFF OMITTED] T5745.225

[GRAPHIC] [TIFF OMITTED] T5745.226

[GRAPHIC] [TIFF OMITTED] T5745.227

[GRAPHIC] [TIFF OMITTED] T5745.228

[GRAPHIC] [TIFF OMITTED] T5745.229

[GRAPHIC] [TIFF OMITTED] T5745.230

[GRAPHIC] [TIFF OMITTED] T5745.231

[GRAPHIC] [TIFF OMITTED] T5745.232

[GRAPHIC] [TIFF OMITTED] T5745.233

[GRAPHIC] [TIFF OMITTED] T5745.234

[GRAPHIC] [TIFF OMITTED] T5745.235

[GRAPHIC] [TIFF OMITTED] T5745.236

[GRAPHIC] [TIFF OMITTED] T5745.237

[GRAPHIC] [TIFF OMITTED] T5745.238

[GRAPHIC] [TIFF OMITTED] T5745.239

[GRAPHIC] [TIFF OMITTED] T5745.240

[GRAPHIC] [TIFF OMITTED] T5745.241

[GRAPHIC] [TIFF OMITTED] T5745.242

[GRAPHIC] [TIFF OMITTED] T5745.243

[GRAPHIC] [TIFF OMITTED] T5745.244

[GRAPHIC] [TIFF OMITTED] T5745.245

[GRAPHIC] [TIFF OMITTED] T5745.246

[GRAPHIC] [TIFF OMITTED] T5745.247

[GRAPHIC] [TIFF OMITTED] T5745.248

[GRAPHIC] [TIFF OMITTED] T5745.249

[GRAPHIC] [TIFF OMITTED] T5745.250

[GRAPHIC] [TIFF OMITTED] T5745.251

[GRAPHIC] [TIFF OMITTED] T5745.252

[GRAPHIC] [TIFF OMITTED] T5745.253

[GRAPHIC] [TIFF OMITTED] T5745.254

[GRAPHIC] [TIFF OMITTED] T5745.255

[GRAPHIC] [TIFF OMITTED] T5745.256

[GRAPHIC] [TIFF OMITTED] T5745.257

[GRAPHIC] [TIFF OMITTED] T5745.258

[GRAPHIC] [TIFF OMITTED] T5745.259

[GRAPHIC] [TIFF OMITTED] T5745.260

[GRAPHIC] [TIFF OMITTED] T5745.261

[GRAPHIC] [TIFF OMITTED] T5745.262

[GRAPHIC] [TIFF OMITTED] T5745.263

[GRAPHIC] [TIFF OMITTED] T5745.264

[GRAPHIC] [TIFF OMITTED] T5745.265

[GRAPHIC] [TIFF OMITTED] T5745.266

[GRAPHIC] [TIFF OMITTED] T5745.267

[GRAPHIC] [TIFF OMITTED] T5745.268

[GRAPHIC] [TIFF OMITTED] T5745.269

[GRAPHIC] [TIFF OMITTED] T5745.270

[GRAPHIC] [TIFF OMITTED] T5745.271

[GRAPHIC] [TIFF OMITTED] T5745.272

[GRAPHIC] [TIFF OMITTED] T5745.273

[GRAPHIC] [TIFF OMITTED] T5745.274

[GRAPHIC] [TIFF OMITTED] T5745.275

[GRAPHIC] [TIFF OMITTED] T5745.276

[GRAPHIC] [TIFF OMITTED] T5745.277

[GRAPHIC] [TIFF OMITTED] T5745.278

[GRAPHIC] [TIFF OMITTED] T5745.279

[GRAPHIC] [TIFF OMITTED] T5745.280

[GRAPHIC] [TIFF OMITTED] T5745.281

[GRAPHIC] [TIFF OMITTED] T5745.282

[GRAPHIC] [TIFF OMITTED] T5745.283

[GRAPHIC] [TIFF OMITTED] T5745.284

[GRAPHIC] [TIFF OMITTED] T5745.285

[GRAPHIC] [TIFF OMITTED] T5745.286

[GRAPHIC] [TIFF OMITTED] T5745.287

[GRAPHIC] [TIFF OMITTED] T5745.288

[GRAPHIC] [TIFF OMITTED] T5745.289

[GRAPHIC] [TIFF OMITTED] T5745.290

[GRAPHIC] [TIFF OMITTED] T5745.291

[GRAPHIC] [TIFF OMITTED] T5745.292

[GRAPHIC] [TIFF OMITTED] T5745.293

[GRAPHIC] [TIFF OMITTED] T5745.294

[GRAPHIC] [TIFF OMITTED] T5745.295

[GRAPHIC] [TIFF OMITTED] T5745.296

[GRAPHIC] [TIFF OMITTED] T5745.297

[GRAPHIC] [TIFF OMITTED] T5745.298

[GRAPHIC] [TIFF OMITTED] T5745.299

[GRAPHIC] [TIFF OMITTED] T5745.300

[GRAPHIC] [TIFF OMITTED] T5745.301

[GRAPHIC] [TIFF OMITTED] T5745.302

[GRAPHIC] [TIFF OMITTED] T5745.303

[GRAPHIC] [TIFF OMITTED] T5745.304

[GRAPHIC] [TIFF OMITTED] T5745.305

[GRAPHIC] [TIFF OMITTED] T5745.306

[GRAPHIC] [TIFF OMITTED] T5745.307

[GRAPHIC] [TIFF OMITTED] T5745.308

[GRAPHIC] [TIFF OMITTED] T5745.309

[GRAPHIC] [TIFF OMITTED] T5745.310

[GRAPHIC] [TIFF OMITTED] T5745.311

[GRAPHIC] [TIFF OMITTED] T5745.312

[GRAPHIC] [TIFF OMITTED] T5745.313

[GRAPHIC] [TIFF OMITTED] T5745.314

[GRAPHIC] [TIFF OMITTED] T5745.315

[GRAPHIC] [TIFF OMITTED] T5745.316

[GRAPHIC] [TIFF OMITTED] T5745.317

[GRAPHIC] [TIFF OMITTED] T5745.318

[GRAPHIC] [TIFF OMITTED] T5745.319

[GRAPHIC] [TIFF OMITTED] T5745.320

[GRAPHIC] [TIFF OMITTED] T5745.321

[GRAPHIC] [TIFF OMITTED] T5745.322

[GRAPHIC] [TIFF OMITTED] T5745.323

[GRAPHIC] [TIFF OMITTED] T5745.324

[GRAPHIC] [TIFF OMITTED] T5745.325

[GRAPHIC] [TIFF OMITTED] T5745.326

[GRAPHIC] [TIFF OMITTED] T5745.327

[GRAPHIC] [TIFF OMITTED] T5745.328

[GRAPHIC] [TIFF OMITTED] T5745.329

[GRAPHIC] [TIFF OMITTED] T5745.330

[GRAPHIC] [TIFF OMITTED] T5745.331

[GRAPHIC] [TIFF OMITTED] T5745.332

[GRAPHIC] [TIFF OMITTED] T5745.333

[GRAPHIC] [TIFF OMITTED] T5745.334

[GRAPHIC] [TIFF OMITTED] T5745.335

[GRAPHIC] [TIFF OMITTED] T5745.336

[GRAPHIC] [TIFF OMITTED] T5745.337

[GRAPHIC] [TIFF OMITTED] T5745.338

[GRAPHIC] [TIFF OMITTED] T5745.339

[GRAPHIC] [TIFF OMITTED] T5745.340

[GRAPHIC] [TIFF OMITTED] T5745.341

[GRAPHIC] [TIFF OMITTED] T5745.342

[GRAPHIC] [TIFF OMITTED] T5745.343

[GRAPHIC] [TIFF OMITTED] T5745.344

[GRAPHIC] [TIFF OMITTED] T5745.345

[GRAPHIC] [TIFF OMITTED] T5745.346

[GRAPHIC] [TIFF OMITTED] T5745.347

[GRAPHIC] [TIFF OMITTED] T5745.348

[GRAPHIC] [TIFF OMITTED] T5745.349

[GRAPHIC] [TIFF OMITTED] T5745.350

[GRAPHIC] [TIFF OMITTED] T5745.351

[GRAPHIC] [TIFF OMITTED] T5745.352

[GRAPHIC] [TIFF OMITTED] T5745.353

[GRAPHIC] [TIFF OMITTED] T5745.354

[GRAPHIC] [TIFF OMITTED] T5745.355

[GRAPHIC] [TIFF OMITTED] T5745.356

[GRAPHIC] [TIFF OMITTED] T5745.357

[GRAPHIC] [TIFF OMITTED] T5745.358

[GRAPHIC] [TIFF OMITTED] T5745.359

[GRAPHIC] [TIFF OMITTED] T5745.360

[GRAPHIC] [TIFF OMITTED] T5745.361

[GRAPHIC] [TIFF OMITTED] T5745.362

[GRAPHIC] [TIFF OMITTED] T5745.363

[GRAPHIC] [TIFF OMITTED] T5745.364

[GRAPHIC] [TIFF OMITTED] T5745.365

[GRAPHIC] [TIFF OMITTED] T5745.366

[GRAPHIC] [TIFF OMITTED] T5745.367

[GRAPHIC] [TIFF OMITTED] T5745.368

[GRAPHIC] [TIFF OMITTED] T5745.369

[GRAPHIC] [TIFF OMITTED] T5745.370

[GRAPHIC] [TIFF OMITTED] T5745.371

[GRAPHIC] [TIFF OMITTED] T5745.372

[GRAPHIC] [TIFF OMITTED] T5745.373

[GRAPHIC] [TIFF OMITTED] T5745.374

[GRAPHIC] [TIFF OMITTED] T5745.375

[GRAPHIC] [TIFF OMITTED] T5745.376

[GRAPHIC] [TIFF OMITTED] T5745.377

[GRAPHIC] [TIFF OMITTED] T5745.378

[GRAPHIC] [TIFF OMITTED] T5745.379

[GRAPHIC] [TIFF OMITTED] T5745.380

[GRAPHIC] [TIFF OMITTED] T5745.381

[GRAPHIC] [TIFF OMITTED] T5745.382

[GRAPHIC] [TIFF OMITTED] T5745.383

[GRAPHIC] [TIFF OMITTED] T5745.384

[GRAPHIC] [TIFF OMITTED] T5745.385

[GRAPHIC] [TIFF OMITTED] T5745.386

[GRAPHIC] [TIFF OMITTED] T5745.387

[GRAPHIC] [TIFF OMITTED] T5745.388

[GRAPHIC] [TIFF OMITTED] T5745.389

[GRAPHIC] [TIFF OMITTED] T5745.390

[GRAPHIC] [TIFF OMITTED] T5745.391

[GRAPHIC] [TIFF OMITTED] T5745.392

[GRAPHIC] [TIFF OMITTED] T5745.393

[GRAPHIC] [TIFF OMITTED] T5745.394

[GRAPHIC] [TIFF OMITTED] T5745.395

[GRAPHIC] [TIFF OMITTED] T5745.396

[GRAPHIC] [TIFF OMITTED] T5745.397

[GRAPHIC] [TIFF OMITTED] T5745.398

[GRAPHIC] [TIFF OMITTED] T5745.399

[GRAPHIC] [TIFF OMITTED] T5745.400

[GRAPHIC] [TIFF OMITTED] T5745.401

[GRAPHIC] [TIFF OMITTED] T5745.402

[GRAPHIC] [TIFF OMITTED] T5745.403

[GRAPHIC] [TIFF OMITTED] T5745.404

[GRAPHIC] [TIFF OMITTED] T5745.405

[GRAPHIC] [TIFF OMITTED] T5745.406

[GRAPHIC] [TIFF OMITTED] T5745.407

[GRAPHIC] [TIFF OMITTED] T5745.408

[GRAPHIC] [TIFF OMITTED] T5745.409

[GRAPHIC] [TIFF OMITTED] T5745.410

[GRAPHIC] [TIFF OMITTED] T5745.411

[GRAPHIC] [TIFF OMITTED] T5745.412

[GRAPHIC] [TIFF OMITTED] T5745.413

[GRAPHIC] [TIFF OMITTED] T5745.414

[GRAPHIC] [TIFF OMITTED] T5745.415

[GRAPHIC] [TIFF OMITTED] T5745.416

[GRAPHIC] [TIFF OMITTED] T5745.417

[GRAPHIC] [TIFF OMITTED] T5745.418

[GRAPHIC] [TIFF OMITTED] T5745.419

[GRAPHIC] [TIFF OMITTED] T5745.420

[GRAPHIC] [TIFF OMITTED] T5745.421

[GRAPHIC] [TIFF OMITTED] T5745.422

[GRAPHIC] [TIFF OMITTED] T5745.423

[GRAPHIC] [TIFF OMITTED] T5745.424

[GRAPHIC] [TIFF OMITTED] T5745.425

[GRAPHIC] [TIFF OMITTED] T5745.426

[GRAPHIC] [TIFF OMITTED] T5745.427

[GRAPHIC] [TIFF OMITTED] T5745.428

[GRAPHIC] [TIFF OMITTED] T5745.429

[GRAPHIC] [TIFF OMITTED] T5745.430

[GRAPHIC] [TIFF OMITTED] T5745.431

[GRAPHIC] [TIFF OMITTED] T5745.432

[GRAPHIC] [TIFF OMITTED] T5745.433

[GRAPHIC] [TIFF OMITTED] T5745.434

[GRAPHIC] [TIFF OMITTED] T5745.435

[GRAPHIC] [TIFF OMITTED] T5745.436

[GRAPHIC] [TIFF OMITTED] T5745.437

[GRAPHIC] [TIFF OMITTED] T5745.438

[GRAPHIC] [TIFF OMITTED] T5745.439

[GRAPHIC] [TIFF OMITTED] T5745.440

[GRAPHIC] [TIFF OMITTED] T5745.441

[GRAPHIC] [TIFF OMITTED] T5745.442

[GRAPHIC] [TIFF OMITTED] T5745.443

[GRAPHIC] [TIFF OMITTED] T5745.444

[GRAPHIC] [TIFF OMITTED] T5745.445

[GRAPHIC] [TIFF OMITTED] T5745.446

[GRAPHIC] [TIFF OMITTED] T5745.447

[GRAPHIC] [TIFF OMITTED] T5745.448

[GRAPHIC] [TIFF OMITTED] T5745.449

[GRAPHIC] [TIFF OMITTED] T5745.450

[GRAPHIC] [TIFF OMITTED] T5745.451

[GRAPHIC] [TIFF OMITTED] T5745.452

[GRAPHIC] [TIFF OMITTED] T5745.453

[GRAPHIC] [TIFF OMITTED] T5745.454

[GRAPHIC] [TIFF OMITTED] T5745.455

[GRAPHIC] [TIFF OMITTED] T5745.456

[GRAPHIC] [TIFF OMITTED] T5745.457

[GRAPHIC] [TIFF OMITTED] T5745.458

[GRAPHIC] [TIFF OMITTED] T5745.459

[GRAPHIC] [TIFF OMITTED] T5745.460

[GRAPHIC] [TIFF OMITTED] T5745.461

[GRAPHIC] [TIFF OMITTED] T5745.462

[GRAPHIC] [TIFF OMITTED] T5745.463

[GRAPHIC] [TIFF OMITTED] T5745.464

[GRAPHIC] [TIFF OMITTED] T5745.465

[GRAPHIC] [TIFF OMITTED] T5745.466

[GRAPHIC] [TIFF OMITTED] T5745.467

[GRAPHIC] [TIFF OMITTED] T5745.468


                                   



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
